<html>
<title> - RISING CRIME IN THE UNITED STATES: EXAMINING THE FEDERAL ROLE IN HELPING COMMUNITIES PREVENT AND RESPOND TO VIOLENT CRIME</title>
<body><pre>[Senate Hearing 110-303]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-303
 
   RISING CRIME IN THE UNITED STATES: EXAMINING THE FEDERAL ROLE IN 
        HELPING COMMUNITIES PREVENT AND RESPOND TO VIOLENT CRIME 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2007

                               __________

                          Serial No. J-110-39

                               __________

         Printed for the use of the Committee on the Judiciary

                     U.S. GOVERNMENT PRINTING OFFICE

40-885 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001








































                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director
                                 ------                                

                    Subcommittee on Crime and Drugs

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
EDWARD M. KENNEDY, Massachusetts     LINDSEY O. GRAHAM, South Carolina
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Texas
                       Todd Hinnen, Chief Counsel
                  Walt Kuhn, Republican Chief Counsel




























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
    prepared statement...........................................   100
Feingold, Russell D., a U.S. Senator from the State of Wisconsin.    11
    prepared statement...........................................   131
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California, prepared statement.................................   133
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   178

                               WITNESSES

Epley, Mark, Senior Counsel to the Deputy Attorney General, 
  Department of Justice, Washington, D.C.........................     5
Fox, James Alan, The Lipman Family Professor of Criminal Justice, 
  Northeastern University, Boston, Massachusetts.................    29
Gregory, Rick S., Chief of Police, New Castle County, Delaware...    21
Kamatchus, Ted, President, National Sheriffs' Association, 
  Marshalltown, Iowa.............................................    16
Laine, Russell B., Second Vice President, International 
  Association of Chiefs of Police, Algonquin, Illinois...........    26
Nee, Thomas J., President, National Association of Police 
  Organizations, Boston, Massachusetts...........................    18
Palmer, Hon. Douglas H., Mayor, Trenton, New Jersey, and 
  President, United States Conference of Mayors, Trenton, New 
  Jersey.........................................................    23

                         QUESTIONS AND ANSWERS

Responses of Mark Epley to questions submitted by Senators Biden 
  and Kennedy....................................................    47
Response of James A. Fox to a question submitted by Senator Biden    77
Response of Rick Gregory to a question submitted by Senator 
  Kennedy........................................................    79
Responses of Ted Kamatchus to questions submitted by Senators 
  Biden, Kennedy and Durbin......................................    80
Responses of Russell Laine to questions submitted by Senators 
  Durbin and Kennedy.............................................    86
Responses of Thomas Nee to questions submitted by Senators 
  Kennedy and Durbin.............................................    89
Responses of Douglas Palmer to questions submitted by Senators 
  Biden, Durbin and Kennedy......................................    93

                       SUBMISSIONS FOR THE RECORD

Advancement Project, Constance L. Rice, Los Angeles, California, 
  letter.........................................................    98
Bakersfield City Council, Bakersfield, California, letter........    99
Boys & Girls Clubs of America, Lorrain Howerton, Senior Vice 
  President, Office of Government Relations, Washington, D.C., 
  letter.........................................................   102
Bratton, William J., Chief of Police, Los Angeles Police 
  Department, Los Angeles, California, statement.................   103
Brookings Institution, Washington, D.C., policy brief............   107
California Gang Investigators Association, Wesley D. McBride, 
  Executive Director, Huntington Beach, California, letter.......   114
California Peace Officers' Association, Paul Cappitelli, 
  President, Sacramento, California, letter......................   115
Chicago Sun-Times, December 28, 2006, article....................   116
County of Los Angeles Board of Supervisors, Sachi A. Hamai, 
  Executive Officer, Los Angeles, California, letter.............   117
Delaware News Journal, Senator Joseph R. Biden, Jr., May 18, 
  2007, article..................................................   118
Dubuque Telegraph Herald, Senator Joseph R. Biden, Jr., article..   119
Epley, Mark, Senior Counsel to the Deputy Attorney General, 
  Department of Justice, Washington, D.C., statement.............   121
Federal Law Enforcement Officers Association (FLEOA), Art Gordon, 
  National President, Lewisberry, Pennsylvania, letter...........   130
Fox, James Alan, The Lipman Family Professor of Criminal Justice, 
  Northeastern University, Boston, Massachusetts, statement......   136
Fraternal Order of Police, Chuck Canterbury, National President, 
  Washington, D.C., letter.......................................   140
Gregory, Rick S., Chief of Police, New Castle County, Delaware, 
  statement......................................................   141
Heck, Mathias H., Jr., Prosecuting Attorney, Montgomery County, 
  Ohio, statement................................................   146
Hispanic American Police Command Officers Association (HAPCOA), 
  Ray Leyva, National President, San Antonio, Texas, letter......   157
International Association of Chiefs of Police (IACP), Joseph C. 
  Carter, President, Alexandria, Virginia, letter................   158
International Association of Women Police (IAWP), Amy Ramsay, 
  President, Orillia, Ontario, Canada, letter....................   159
International Union of Police Associations, AFL-CIO, Dennis 
  Slocumb, International Vice President, Alexandria, Virginia, 
  letter.........................................................   160
Kamatchus, Ted, President, National Sheriffs' Association, 
  Marshalltown, Iowa, statement and attachment...................   161
Laine, Russell B., Second Vice President, International 
  Association of Chiefs of Police, Algonquin, Illinois, statement   167
League of California Cities, Maria Alegria, President, and 
  Christopher McKenzie, Executive Director, Sacramento, 
  California, letter.............................................   177
Legal Momentum, Lisalyn R. Jacobs, Vice-President of Government 
  Relations, Washington, D.C., letter............................   180
Major Cities Chiefs Association, Darrel Stephens, President, 
  Washington, D.C., letter.......................................   185
MENTOR, Karen Nussle, Senior Vice President, Alexandria, 
  Virginia, letter...............................................   186
National Alliance to End Homelessness, LaKesha Pope, Youth 
  Program and Policy Analyst, and Richard A. Hooks Wayman, Senior 
  Youth Policy Analyst, Washington, D.C. letter..................   187
National Association of Women Law Enforcement Executives 
  (NAWLEE), Laura Forbes, President, Carver, Massachusetts, 
  letter.........................................................   189
National Black Police Association, Inc., Ronald E. Hampton, 
  Executive Director, Washington, D.C., letter...................   190
National Council of Juvenile and Family Court Judges (NCJFCJ), 
  Hon. Dale R. Koch, Presiding Judge, Multnomah County Circuit 
  Court, Portland, Oregon, President, National Council of 
  Juvenile and Family Court Judges, statement....................   191
National Council on Disability, Association of University Centers 
  on Disabilities, and the National Center for Victims of Crime, 
  Washington, D.C., joint statement..............................   195
National Latino Peace Officers Association (NLPOA), Roy Garivey, 
  President, Las Vegas, Nevada, letter...........................   203
National Major Gang Task Force, Edward L. Cohn, Executive 
  Director, Indianapolis, Indiana, letter........................   204
National Narcotic Officers' Associations' Coalition (NNOAC), 
  Ronald E. Brooks, President, West Covina, California, letter...   205
National Organization of Black Law Enforcement Executives 
  (NOBLE), Jimmie Dotson, National President, Alexandria, 
  Virginia, letter...............................................   206
National Troopers Coalition (NTC), Dennis Hallion, Chairman, 
  Washington, D.C., letter.......................................   207
Nee, Thomas J., President, National Association of Police 
  Organizations, Boston, Massachusetts, statement and attachment.   208
Palmer, Hon. Douglas H., Mayor, Trenton, New Jersey, and 
  President, United States Conference of Mayors, statement and 
  attachment.....................................................   214
Passalacqua, Stephan R., Sonoma Country District Attorney, Santa 
  Rosa, California, letter.......................................   222
Penrod, Gary S., Sheriff, San Bernardino County Sheriff's 
  Department, San Bernardino, California, letter.................   223
Pittsburgh Post-Gazette, Senator Joseph R. Biden, Jr., October 
  18, 2006, article..............................................   224
Points of Light Foundation, Howard H. Williams III, Interim CEO 
  and President, Washington, D.C., letter........................   226
Police Executive Research Forum, Washington, D.C., report........   227
Police Foundation, Hubert Williams, President, Washington, D.C., 
  letter.........................................................   247
Schwarzenegger, Hon. Arnold, Governor of California, Sacramento, 
  California, letter.............................................   248
Stalking Resource Center, Senator Joseph R. Biden, Jr., January 
  26, 2007, article..............................................   249
The State, Columbia, South Carolina, Senator Joseph R. Biden, 
  Jr., August 7, 2007, article...................................   250
United States Conference of Mayors, January 24, 2007, article....   252
USA Today, Washington, D.C., article.............................   255


   RISING CRIME IN THE UNITED STATES: EXAMINING THE FEDERAL ROLE IN 
        HELPING COMMUNITIES PREVENT AND RESPOND TO VIOLENT CRIME

                              ----------                              


                        WEDNESDAY, MAY 23, 2007

                                       U.S. Senate,
                           Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 9:31 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., Chairman of the Subcommittee, presiding.
    Present: Senators Biden, Kohl, Feingold, and Grassley.

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Chairman Biden. The hearing will come to order. I welcome 
our witnesses today, and let me begin by saying that Senator 
Graham, who is the Ranking Member on the Subcommittee--we have 
a mild little issue on the floor called ``immigration'' we are 
debating today, and he has some responsibilities relating to 
that legislation. Senator Specter is going to be here. He is 
at, I think, the Appropriations Committee. And Senator Grassley 
is here. And I am going to make a brief opening statement, and 
I would yield then to Senator Grassley, who has an introduction 
he would like to make.
    Let me begin by saying that I am glad you all could be here 
today to address a subject which this Committee, in the 17 
years I was the Chairman or Ranking Member, spent most of my 
time dealing with, and that is the issue of violent crime in 
America and what role, if any, the Federal Government should 
have in helping States combat violent crime.
    I would like to talk a little bit about that today, but let 
me begin by thanking the witnesses and welcome our 
distinguished experts. There are some old friends here who have 
been working on this issue for a long time, and some new 
friends that I hope will be working with me and others over the 
next couple months to make some real changes in our funding 
mechanisms for local law enforcement.
    Last week we observed National Police Week, and it reminded 
us all of the sacrifices that are made every single day by 
those who are willing to go out there and protect our 
communities.
    I would like to ask the staff to find out who is banging up 
there and tell them they will be arrested. I have a lot of cops 
down here.
    [Laughter.]
    Chairman Biden. And if they do not stop, they are going to 
be arrested.
    But we meet today against the backdrop of an insidious 
resurgence of violent crime in communities across the country.
    For the first time in more than a decade, crime is on the 
rise. The 2005 Federal Bureau of Investigation Uniform Crime 
Report found that murders are up 3.4 percent--the largest 
percentage increase in 15 years--with 16,692 murders in 2005--
the most since 1998. And I realize it is anecdotal, but you 
need only turn on the television in any major metropolitan 
area, and it seems as though the murder rate is up beyond that. 
Again, we have no statistics beyond 2005 nationally, but I know 
in Philadelphia, in Baltimore, in New York City, across the 
country as I travel, that is the banner headline in most of the 
news reports about murder rates exceeding last year's murder 
rates at this point. Again, I want to make it clear. There are 
no uniform statistics yet that I have available to me, but it 
is a problem.
    The report also found that other types of violent crime, 
including forcible rape, robbery, and aggravated assault, rose 
2.3 percent.
    The Police Executive Research Forum's recent study of crime 
in 56 cities found that over the past 2 years homicides 
increased more than 10 percent nationwide and 20 percent in 
major cities. I am troubled, as all of us are, by these trends, 
but, quite frankly, I am not surprised. The Federal Government 
has taken its focus off of street crime since 9/11, asking law 
enforcement to do more with less. And the administration, in my 
view--and we are going to hear from an administration witness 
in a moment--has understandably dedicated vast Federal 
resources to counterterrorism. But it has done it at the 
expense of law enforcement, in my view, robbing Peter to pay 
Paul. I find absolutely no justification for the $2.1 billion 
cut in local law enforcement assistance since 2001, 
notwithstanding the need to vastly increase the amount of money 
to deal with counterterrorism. There has been sort of a perfect 
storm out there. The FBI has necessarily been pulled off a lot 
of work it used to do in local law enforcement. The cities and 
States have had to cut back as we have eliminated programs. 
And, quite frankly, if anyone is likely to find a terrorist, it 
is not going to be some brave Special Forces soldier wearing 
night vision goggles. It is going to be one of your men or 
women, Chief, who are going to be the ones who are going find 
the terrorist occupying an empty apartment building that only 
that cop walking the beat or riding by in his patrol car is 
going to know has been vacant the last 4 years, and all of a 
sudden there is a light on up there.
    The President has killed the COPS program and drastically 
cut the Justice Assistance Grants. And when the program was 
announced by former Attorney General Ashcroft, he said, ``It 
worked marvelously.'' It worked marvelously, and we are cutting 
it? I have never quite fully understood that except for the 
ideological notion that the Federal Government should not be 
involved in dealing with local law enforcement. They call it 
``devolution of Government.'' I call it the ``increase in 
violent crime.''
    The President has also redirected 1,000 FBI agents from 
crime to counterterrorism, as is necessary, and as a result, 
violent crime investigations by the FBI are down 60 percent. 
have been proposing to increase the FBI by over 1,000 agents 
the last 4 years. What are we doing? But this is what we are 
going to talk about a little bit today. Fewer police on the 
street preventing crime and protecting communities means more 
crime, and it is as simple as that. It is not rocket science. 
We went through this whole debate during the 1980s and 1990s, 
when I was told the Biden crime bill would have no impact 
because we never tried it before. We never increased that many 
cops before. And we increased cops and violent crime went down. 
And so our sheriffs and police officers have done an 
extraordinary job in the face of diminishing Federal support, 
but they also need help, in my view. We cannot focus on 
terrorism at the expense of fighting crime, and that is a false 
choice. We can do both. We need not be put in this dilemma of 
the false choice of you either fight terrorism or you fight 
street crime. We are fully within our capability of doing both. 
As my father would say, ``Show me your budget; I will tell you 
what you value.'' So I find this argument somewhat--anyway, I 
find it difficult to swallow.
    It seems to me we have to get back to basics. More than a 
decade ago, we faced a similar violent crime crisis, although 
the crime rates were much higher. We overcame that crisis by 
supporting local law enforcement with the tools and resources 
they needed to prevent crime whenever possible and to punish 
crime wherever necessary. We passed the most sweeping anti-
crime bill in the history of this Nation and created the 
Community Oriented Policing Services Program--the so-called 
COPS program. We funded 118,000 local officers. We expanded 
community policing across the Nation.
    And it worked. Crime rates fell 8 straight years. The 
violent crime rate dropped 26 percent; the murder rate dropped 
34 percent. The Government Accountability Office has documented 
the success of these anti-crime measures, and a recent 
Brookings Institution study found that the COPS program was one 
of the most cost-effective programs for combating crime. In 
fact, the Brookings Institution found that for every dollar 
spent on COPS, we save between $6 and $12 for the public 
overall.
    Today we have several distinguished experts to help us 
understand how to best to use Federal resources to reverse 
these trends and to help make our communities safer again. A 
number of experts have also submitted written testimony which I 
will reference during this hearing, and we will submit that 
testimony so it is available for the record.
    I now invite my good friend and former Chairman of this 
Committee, Senator Grassley, to make any opening comments and 
introduce a distinguished Iowan who is here to testify.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. Thank you. I will not give an opening 
statement. I will have to immediately go to serve in my 
capacity as lead Republican on the Finance Committee starting 
at 10 o'clock.
    Mr. Chairman, you are involved in the caucus system in 
Iowa, and I will bet you--
    Chairman Biden. I have heard of it. I have heard of it.
    Senator Grassley. And I will bet you have had people say it 
is like running for sheriff.
    Chairman Biden. Yes, it is, only it is not as hard.
    Senator Grassley. You have one of those 99 Iowa sheriffs 
before you. This stern-looking man over here is really quite 
friendly. He is President of the Sheriffs' Association 
nationally. He is a friend of mine, and he has been a sheriff 
for a long time. So I am pleased to welcome to this Committee 
again--because I had this opportunity a few weeks ago--Ted 
Kamatchus, Sheriff for Marshall County, Iowa, and that is right 
in the middle of our State. So you will be going through it 
several times, and drive carefully. The staff person that 
brought me here today says, ``I got two tickets from him 3 
years ago.''
    [Laughter.]
    Senator Grassley. So he is doing his job, see.
    As I said, just a few weeks ago he was here on another 
subject, so it is great to see him back. This sheriff is here 
today because he is a national leader, as the Sheriffs' 
Association National President. But the most important thing 
for your testimony is that he has got 30 years' experience in 
law enforcement. He is an outspoken advocate for sheriffs 
across the country, from border to border, coast to coast. I 
have known him a number of years and know him to be a straight 
shooter from the standpoint of talking. He tells it like it is. 
You may be a straight shooter otherwise, too. Thank God I have 
not experienced that.
    He relates his practice firsthand, which he has gathered 
from fighting crime, and particularly in Iowa, you have heard a 
lot about the methamphetamine scourge that we have. He is out 
there day in and day out on the front lines witnessing the 
devastating effect of this drug on our communities. Hearing 
from witnesses like the sheriff with experience and know-how is 
essential for us to do our job. As both a sheriff for rural 
Iowa and the President of the National Association, he will 
provide invaluable insight into the necessity of providing 
resources to local law enforcement, including what is always an 
issue around here, the Byrne and JAG grant program and the COPS 
program.
    So on behalf of the Subcommittee, I am happy to welcome 
you. Thank you, Mr. Chairman.
    Chairman Biden. Thank you very much, Mr. Chairman, and, 
Ted, we are going to welcome you a little later.
    I have had the benefit of meeting with the sheriff, and I 
look forward to his testimony.
    We now have Mark Epley, who is senior counsel to the Deputy 
Attorney General of the U.S. Department of Justice. He joined 
the Justice Department and he is responsible for advising and 
assisting the Deputy Attorney General in the formulation and 
implementation of the Justice Department budget--which is 
always an easy thing to do, right? He also oversees the grants 
that the Justice Department makes to the Community Oriented 
Policing Program and the Office of Justice Programs and the 
Office of Violence Against Women. Prior to becoming senior 
counsel, he served as Chief of Staff to the Assistant Attorney 
General for the Office of Justice Programs. Before he joined 
the Justice Department, Mr. Epley served as general counsel to 
the House Armed Services Committee and as counsel to its 
Military Personnel Subcommittee. He practiced law at Hunton & 
Williams in Richmond, Virginia, and Washington, D.C., before 
embarking on his career in public service.
    We are happy to have you here, Mr. Epley, and we look 
forward to your testimony. The floor is yours.

STATEMENT OF MARK EPLEY, SENIOR COUNSEL TO THE DEPUTY ATTORNEY 
        GENERAL, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Epley. Thank you, Mr. Chairman. I am glad for the 
opportunity to testify before the Subcommittee about violent 
crime in America and what the Department of Justice is doing to 
assist our State and local partners with the prevention and 
control of crime.
    Due in large measure to the effectiveness and hard work of 
State and local law enforcement, violent crime in America 
remains near historic lows, according to the 2005 National 
Crime Victimization Survey and the FBI's Uniform Crime Report. 
After rising to a dramatic peak in the early 1990s, violent 
crime rates in America have declined steadily since. Although 
in 2005 there were measurable increases in violent crime--with 
regard to homicide, robbery and, to some extent, aggravated 
assault, though rape went down--it is important to note that 
the rate of violent crime in 2005 is the second-lowest reported 
in last 30 years. Only 2004 was lower.
    When we examine this data, we do not discern any nationwide 
trend. Rather, what we see is that certain crimes in certain 
communities are going up. For example, the rate of homicide 
nationwide went up 2.4 percent in 2005. The Northeast, however, 
experienced a 5.3-percent, the South a 0.8-percent increase, 
and the West a 1.7-percent increase.
    Likewise, cities of different sizes were affected 
differently by crime. Very large cities did not see a change in 
their homicide rate. Cities of 100,000 to 250,000 saw a 
measurable increase in their homicide rate. And those 250,000 
to 500,000 saw a decline. We do not see a particular nationwide 
trend, and the data does not point to any particular cause. But 
it is important to note, as the Attorney General said last 
week, it is difficult to hope when you live in fear of crime.
    When you look at the 2005 data, when you look at the 2006 
preliminary data, notwithstanding its limitations, you see that 
many communities face violent crime challenges, and the 
Department is committed to working with those communities to 
meet that challenge.
    To better understand what is going on with violent crime in 
America, the Attorney General asked the Department to go and 
visit communities throughout the country, and we did that. We 
visited 18 cities around the country, some of which had 
experienced increases in violent crime and some decreases, to 
understand what works and what the challenges are. And one of 
the consistent themes that we heard was the value of Federal-
local partnership. And a specific example of that that was 
raised was Project Safe Neighborhoods, an initiative through 
which local law enforcement and local prosecutors can refer for 
Federal prosecution gun crimes. And through that partnership we 
have doubled the number of gun crime prosecutions in the last 6 
years when compared to the preceding 6 years.
    Another example of partnership is law enforcement task 
force activity, like the FBI's Safe Streets Task Force, the 
ATF's Violent Crime Impact Teams, the U.S. Marshal Service's 
regional fugitive apprehension task forces. Whether partnering 
through operations or prosecution, the Department is committed 
to growing those relationships, but we appreciate that 
partnership on the part of local law enforcement takes 
resources. And the President's 2008 budget recognizes that 
fact. It seeks $200 million to support the Violent Crimes 
Reduction Partnership Initiative. These are funds that would 
support multijurisdictional task forces led by local law 
enforcement, working with Federal law enforcement, to target 
relief to those communities that are facing challenges.
    More immediately, the Attorney General announced last week 
that the Office of Justice Programs would be investing $125 
million through the Byrne discretionary program throughout the 
country. And one of the focus areas of that program is 
targeting violent crime. We hope that those resources will be 
quickly delivered to the field to provide those communities 
facing violent crime challenges relief.
    Mr. Chairman, the Department is committed to working with 
our State and local partners to add value where we can. But it 
is important to understand that not all communities are 
experiencing crime in the same way. Therefore, it is important 
to understand that some communities are affected differently 
than others in order to effectively target relief and in order 
to partner effectively. And we are committed to doing that.
    Thank you.
    Chairman Biden. As the old joke goes, therein lies the 
problem. You have a fundamentally different view of what is 
going on than I do. You know, I kind of view fighting crime 
like cutting grass. You go out there and cut your grass this 
weekend and it looks great. If you do not cut it for another 
week, it looks okay. In 2 weeks, it looks pretty bad. In a 
month, it really gets tattered.
    Why are you increasing the Byrne grants when you tried to 
eliminate them? What epiphany did you guys have?
    Mr. Epley. Mr. Chairman, are you referring to the 
President's request for--
    Chairman Biden. You just said you asked for $125 million 
for the Byrne grants. Isn't that what you just said to me? I am 
sorry. Maybe I misunderstood.
    Mr. Epley. You are right, Mr. Chairman. The announcement 
the Attorney General made last week was that $125 million of 
the Byrne discretionary grant program would be invested across 
the country to prevent and control crime.
    Chairman Biden. What changed? I mean, you all have been 
after eliminating it the last 6 years, so all of a sudden--I 
mean, what was the epiphany? What happened to make you realize 
you needed to do this?
    Mr. Epley. Those funds, Mr. Chairman, were appropriated by 
Congress as part of the joint resolution, the 2007--
    Chairman Biden. Yes, we consistently do not listen to you. 
If you notice, we completely disregard you every year you do 
this. So you should not be surprised that we appropriated the 
funds. I am wondering why you now--why is the Department--this 
is unfair to do this to you. The Attorney General should be 
here answering these questions. But do you know why? If you 
know. I do not mean to be rude, but do you know why this year 
you concluded that you needed that discretionary Byrne grant 
money to get out to the States? Was it political pressure?
    Mr. Epley. No, Mr. Chairman. With regard to the 2007 money, 
the Department is merely seeking to faithfully administer the 
funds that Congress appropriated in 2007. And--
    Chairman Biden. But do you think we should be? What I am 
trying to get at is in the past you have argued this money is 
not necessary. You have argued it is not necessary, we do not 
need it, and that the States and the cities and localities 
could take care of it and you should not be in the business of 
doing it. That is the argument you made, the Justice Department 
under its past two Attorneys General has made the last 6 years. 
And I am wondering why all of a sudden you think that now you 
want to faithfully implement this program. Do you think it is 
worthwhile? Do you think it is a good thing? Do you think the 
Byrne grants are good? Do you think they are necessary?
    Mr. Epley. Mr. Chairman, I need to speak--as far as looking 
forward and the law enforcement investments that the 
President's budget seeks to make--
    Chairman Biden. Let me just ask you a very specific 
question, Mark. And it is OK if you do not know the answer. But 
it would be nice to know whether or not you think now the Byrne 
grants are important. Do you think they are necessary in order 
to fight crime? Or do you still--is the Department doing it 
because of the political pressure we have? The reason it 
matters, it matters in terms of what we can look forward to and 
the kinds of cooperation we are going to get.
    So if we had not put the money in, would you guys have put 
the money in?
    Mr. Epley. The President's 2008 budget request seeks $200 
million to support multijurisdictional task forces led by local 
law enforcement, and so I think that is the best expression of 
the administration's view on how to effectively partner with 
State and local law enforcement.
    Chairman Biden. Now, you make the case that, you know, 
crime varies from locale to locale. That is why I wrote the 
COPS bill the way I did, because communities do not have to ask 
for it. There is no requirement. We do not have to go in where 
crime is not up. I find that it is an interesting thing. Mayors 
and county council persons and county executives, they do not 
ask for the money. The people who have real problems, they ask 
for the money.
    I mean, I think the reason why it has gotten such 
significant, consistent, positive reviews is it did not mandate 
anything. The COPS bill said, gee, if you need cops, go to your 
mayor and see if you can get your city council to come up with 
their piece of it and the Federal Government will kick in their 
piece. So I cannot think of any program--can you think of any 
program that better makes the judgment of whether or not 
additional law enforcement resources in terms of a shield are 
needed than the COPS program? Or do you think you all should 
decide that federally?
    Mr. Epley. Mr. Chairman, based on what we saw in the field 
when we visited 18 communities around the country, some of 
these communities had experienced an increase in violent crime, 
and others a decrease.
    Chairman Biden. Right.
    Mr. Epley. And we observed a very curious thing, and that 
is, in some communities there was both over time, 2000 to 2005, 
a decrease in their staffing and a decrease in certain kinds of 
violent crime.
    On the other hand, there were communities in which there 
were increases in their law enforcement staffing, and they 
experienced increases in violent crime.
    What we took away from that is that there are many factors 
that drive violent crime. It might be demographic changes. Some 
of the communities pointed to loosely organized gangs or street 
crews, increasingly violent juvenile crime, the presence of 
illegal guns, demographic changes, re-entering felons. All of 
these things contribute to the nature of crime in a given 
community.
    Chairman Biden. True.
    Mr. Epley. And based on what we saw and observed in the 
field, the administration's view is that the best way to target 
relief to those communities facing violent crime challenges is 
to support law enforcement task forces. And essentially that is 
an investment in veteran law enforcement for--
    Chairman Biden. Why did you cut those task forces then? Or 
you just think they are needed now? You are coming back with 
$200 million, which is a significantly smaller amount than was 
available for these joint task forces. You eliminated the 
Violent Crime Strike Forces with the FBI. You wiped those out a 
while ago, over my objection, and others' objections. So you 
think that that is the best way to target this.
    Now, you know, you are beginning to sound like a liberal 
Democrat. It took me 10 years to fight the Democrats that there 
are only a couple things we know about crime, violent crime. 
One, after hundreds of hours of hearings, if there are four 
corners at an intersection and a crime is going to be committed 
on one of those corners and there are only three cops, it will 
be committed where the cop is not. That one we know.
    We also know that when people get to be about 40 years old, 
they commit fewer violent crimes because it is harder to run 
down the street and jump the chain link fence. You know, it 
makes it a little more difficult. And so you all are saying 
that what you are going to do is at the Federal level, you have 
made a judgment, after visiting 18 localities, that, in fact, 
there is really no correlation between the amount of resources 
in terms of personnel and whether or not there is violent 
crime. That is your bottom line, is it not? Is that what you 
are saying?
    Mr. Epley. I do not know that I--I would not want to say it 
is--I would provide a more nuanced--
    Chairman Biden. I would like to hear it.
    Mr. Epley.--representation, namely, that when we look back 
over time, we have law enforcement expenditure data up through 
2004 on the dollar amounts spent on police protection by 
Federal, State, and local law enforcement. Looking back over 
time to 1990, we see that in each year the total amount of 
money spent on police protection, adjusted for inflation, has 
increased each year.
    And so one of the conclusions that one can draw is that 
State and local government have raised money and spent it on 
police protection consistent with their primary responsibility 
with keeping the peace and securing public safety. When we look 
at this picture, we see the nature of crime in America--that 
is, different crimes going up in different communities. We want 
to add value where we can and make measurable--and invest in 
things that yield measurable results.
    Chairman Biden. Do you think there is any correlation 
between the fact that we spend considerably more money 
federally which leveraged States' spending more money and the 
violent crime rate for roughly 10 years in a row dropping about 
8 percent per year? Was there any correlation between the 
increase in the Federal resources leveraging State resources 
and the drop in violent crime? What do you think? Because this 
is a basic, basic, basic disagreement here, and I am trying to 
get at the core of where the administration is and where I am, 
at least. So is there a correlation? I mean, to what do you 
attribute that drop in crime?
    Mr. Epley. Mr. Chairman, I do not know, but let me tell you 
some of the observations that one can draw. One can see that 
the rate of violent crime started going south, that is, got 
better in the early 1990s--
    Chairman Biden. Barely. Barely.
    Mr. Epley.--even in advance of--
    Chairman Biden. Barely, and we increased funding then, 
even. That was before the COPS bill. But we increased Federal 
funding over that period, from 1988 to 1992.
    Mr. Epley. But even before the Omnibus Crime Control Act 
money came out in 1994 and 1995 and so on, we began to see the 
violent crime rate going down. There is no doubt about the fact 
that over time--
    Chairman Biden. Well, let me make the point. There was an 
increase in funding commensurate with it going down before we 
did the $30 billion crime bill in 1994. From 1988 to 1994, we 
increased Federal participation and Federal money into local 
law enforcement. And so it was not like we were cutting funding 
and crime was going down. We were increasing Federal funding. 
We did not increase it nearly as much as we did in 1994, but 
beginning in 1995, with the increase, the significant increase 
in Federal funding, there was a significant decrease in violent 
crime.
    Mr. Epley. Mr. Chairman, what certainly you see when you 
look at law enforcement expenditures, the rate of crime, and 
the number of law enforcement sworn officers on board, you do 
see-1995, 1996, and so on--an increase in the number of sworn 
law enforcement members as a proportion of population. So that 
is something that, when you look at the statistics over time, 
you do see a change in that regard.
    During the entire period, back starting in 1993 through 
2005, you see the rate of violent crime declining.
    Notwithstanding changes in the law--
    Chairman Biden. Declining less and less and less every 
year.
    Mr. Epley. Mr. Chairman, I think that statisticians that we 
talk to say that at the rate of crime that is now measured, it 
is difficult to measure meaningful changes in violent crime. 
That is why I think in some communities you actually see the 
homicide rate going up but the robbery rate going down, or vice 
versa. Typically, that--
    Chairman Biden. That has always been the case. You go back 
40 years, there has not been a direct correlation that every 
crime goes up in every category. There are times when crimes go 
up in murder and they drop down in robbery or rape. There are 
times when they go up in rape and they drop down in murder. It 
is not, at least to the best--I have been doing this for a long 
time, and I am using your statistics, and the statistics made 
available from the UCR reports, I just find it interesting.
    In 2000, we had 708,022 sworn officers, and the recent 
report shows that there are 670,000 sworn officers in 2005. But 
what I do not get is the argument you are making--I get it. The 
argument you are making is that there are other things 
unrelated to additional police officers, Byrne grants, law 
enforcement block grants, all the things which you have 
slashed. There are different things than those things that are 
going to be able to impact on keeping the crime rate from 
continuing to go up. Is that what you are saying?
    Mr. Epley. That is right, Mr. Chairman. I think that the 
fundamental point that I would like to share as part of this 
dialog about how best to respond to violent crime is that 
Federal partnership with State and local law enforcement can 
add value and that--
    Chairman Biden. Yes, but you have slashed that. You have 
slashed it dramatically.
    Mr. Epley. But, Mr. Chairman, we would argue that the 
nature of partnership is not always--the nature and 
effectiveness of the partnership is not always measured in 
terms of grant dollars, that, Mr. Chairman, Federal law 
enforcement task forces like the FBI Safe Streets Task Forces, 
the ATF Violent Crime Impact Teams, the Marshals' Fugitive 
Apprehension Program, and so on, the aggressive prosecutions 
that we have been able to pursue through Project Safe 
Neighborhoods, an investment of $1.6 billion in Project Safe 
Neighborhoods in terms of training local law enforcement and 
prosecutors, designating special AUSAs to prosecute these 
crimes--through that partnership we have doubled the number of 
gun criminals in prison. And each and every one of those gun 
criminals, essentially 35,000 more were prosecuted over the 
last 6 years. They were taken out of the community they were 
terrorizing and incapacitated from--
    Chairman Biden. I am very familiar with it. In 2003 and 
2004, you did not want to do that. It was us beating the living 
devil out of you to have the U.S. Attorneys take over more of 
these gun prosecutions because of the Federal laws we wrote, 
because the penalties are so severe. I am the guy that drafted 
that legislation, you know, the legislation laying out the 
penalties and eliminating parole and probation. I actually sat 
in this old place and authored that years ago, and--
    Mr. Epley. It has been an effective tool, Mr. Chairman.
    Chairman Biden. Well, anyway, look, I think one of the--I 
see my colleague from Wisconsin is here, and I am going to 
yield to him in just a moment? I just can assure you of one 
thing. If we continue to decrease or keep at the reduced level 
of roughly $2 billion a year that is not going from the Federal 
Government to local law enforcement, roughly $1 billion a year 
for hiring additional officers, you are going to see the 
violent crime rate continue to go up. It is a pattern. You 
know, Emerson once said, ``Society is like a wave. The wave 
moves on, but the particles remain the same.'' God has not made 
a new brand of man or woman in a millennia. And the idea that 
we are going to be able to keep violent crime down with fewer 
officers and fewer resources as populations increase, I find 
that to be totally counterintuitive. But we can get back to 
that. I have a few more specific questions.
    Let me yield to my colleague now.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you so much, Mr. Chairman. I want 
to thank you for chairing this hearing.
    I also want to recognize, because we do not do it often 
enough, the leadership that the Chairman has had on this issue 
of fighting crime and getting this right for his entire career. 
There is no one who has been more dedicated to the issue. I 
benefit from being able to talk about COPS programs and his 
leadership on the Violence Against Women Act every time I am 
home. So, Mr. Chairman, I can finally talk about my 15 years in 
the Senate--nothing like what you can say--and you maintain the 
commitment over time, and I admire you for that very, very 
much.
    Chairman Biden. Thank you.
    Senator Feingold. I would also like to thank all the 
witnesses whose expertise is greatly needed at a time when the 
Nation is struggling with an increase in violence and crime in 
our communities. I would ask that my full statement be included 
in the record.
    While we all hear about the rising crime rates in cities 
across America, one of the cities hardest hit has been 
Milwaukee, Wisconsin. According to a report released by the 
Police Executive Research Forum, Milwaukee's homicide rates 
have increased by 17 percent, robbery rates by 39 percent, and 
aggravated assault by 85 percent, all in the past 2 years. 
These statistics alone are staggering, but the human toll is 
truly heartbreaking.
    On Monday, May 14, 2007, 4-year-old Jasmine Owens was shot 
and killed by a drive-by shooter. She had been skipping rope in 
her front yard.
    On Thursday, February 22, 2007, Shaina Mersman was shot and 
killed at noon in the middle of a busy shopping area. She was 8 
months pregnant, and she died in the middle of the street.
    These are but two of the senseless deaths in a list of 
names that is far too long. It is my sincere hope that through 
hearings like this and legislation such as Senator Biden's COPS 
Improvements Act, Senator Feinstein's Edward Byrne Memorial 
Justice Assistant Grant Program bill, and my own PRECAUTION 
bill, which I am introducing later this week, that we can begin 
to address these very real problems.
    The PRECAUTION Act recognizes that it is far better to 
invest in precautionary measures now than it is to pay later 
the costs of crime--a cost borne not only in dollars but in 
lives. We have mourned the loss of far too many innocent lives 
already. This legislation creates a national commission to 
review the range of prevention and intervention programming 
available, to identify the most successful strategies out of 
that group, and to report on those findings to the criminal 
justice community. It creates a targeted grant program through 
the National Institute of Justice that will fund promising and 
innovative techniques that need Federal dollars to be developed 
into more reliable strategies.
    In general, the PRECAUTION Act provides resources that will 
further the integration of prevention and intervention 
strategies into traditional law enforcement practices. I hope 
that other members of the Judiciary Committee will join Senator 
Specter and me in working to get this modest but important 
piece of legislation passed. I also appreciate the support of 
Ted Kamatchus, the President of the National Sheriffs' 
Association, for my bill, because I believe that utilizing 
prevention and intervention strategies is both smart and 
necessary.
    I would ask the witness to respond. I have mentioned that 
Milwaukee has been particularly hard hit by rising crime rates. 
What is the Justice Department doing to provide additional help 
and resources to Milwaukee?
    Mr. Epley. Mr. Feingold, the Department of Justice, we 
share your concern about the violent crime challenge that 
Milwaukee has been facing. As the Attorney General said last 
week, it is difficult to dream dreams when you grow up in a 
community that is weighed down with the fear of crime.
    As you know, the Department of Justice invested 
specifically in Milwaukee $2.5 million for its comprehensive 
gang initiative--that $2.5 million, $1 million to prevention 
work, $1 million to crime suppression, and half a million 
dollars to re-entry prisoner re-entry. One of the most 
effective ways to prevent crime is to keep those career 
criminals from continuing in a life of crime.
    In addition to those funds, specifically targeted to 
Milwaukee and actually nine other cities around the country, 
the 2007 grant money has begun to be both made available to 
communities through solicitations, but then also the formula 
money has begun to be pushed out to the field. So, for example, 
the Justice Assistance Grant programs that the Department 
administers actually have an increase this year, such that 
Wisconsin will enjoy a $2.3 million increase in Justice 
Assistance Grant money. Milwaukee itself stands to gain about 
$400,000 more than last year in Justice Assistance Grants.
    In addition to that, Mr. Feingold, the Project Safe 
Neighborhoods money for the Eastern District of Wisconsin--a 
lot of those dollars will go to work in Milwaukee--will go up 
70 percent this year, and likewise, the PSN grants effort, 
which is sort of the PSN Task Force effort as against gang 
activity, will likewise increase by about 60 percent for the 
Eastern District of Wisconsin.
    So we hope through these investments--PSN, PSN Gangs, the 
increase in the Justice Assistance Grant program--that 
Milwaukee and Wisconsin will have the resources necessary to 
suppress violent crime.
    Senator Feingold. I appreciate that answer as far as it 
goes. Some of it had to do with what has already been done 
before. Some of it appears to be forward-looking. But the fact 
is that there have been dramatic cuts advocated for some of the 
most important Federal grant programs: the COPS program, the 
Byrne Justice Assistance Grant program. These are important 
programs for Milwaukee. In fact, I am told that Milwaukee 
received zero dollars in COPS hiring funds last year.
    How does that track with the commitment to the problem in 
Milwaukee?
    Mr. Epley. The COPS hiring program, when it accomplished 
its core mission, which was to hire 100,000 sworn law 
enforcement officers, the administration began to invest 
resources in other priority areas, including Project Safe 
Neighborhoods, as a way to target relief to communities facing 
violent crime challenges.
    I believe 2005 was the last year in which Congress provided 
funds for the universal hiring program. It was a small dollar 
amount. Maybe the last year for which a substantial amount of 
money was 2004. But in large measure, that universal hiring 
program has been phased out, both through the administration 
budgets that we have put forward, but also through the spending 
priorities articulated in the congressional appropriations 
acts.
    Senator Feingold. I think it is regrettable that that has 
been done, but let's work together to try to get the help to 
the city that it needs.
    Thank you very much.
    Mr. Epley. Thank you.
    Chairman Biden. Thank you.
    Mr. Epley, do we have enough FBI agents? What do you think?
    Mr. Epley. I think that the President's 2008 budget 
requests resources sufficient to meet the Bureau's mission. 
There are always difficult choices to make in a budget when it 
is taken as a whole. The FBI has been asked to take on a 
significant burden, standing up a bureau within a bureau to do 
effective counterterrorism and counterintelligence work. And 
standing up that bureau takes resources. They do a lot with a 
limited budget.
    Chairman Biden. If I gave you money for another 1,000 FBI 
agents, could you use them?
    Mr. Epley. Mr. Chairman, the funds that we--the resources 
that the Department seeks, the administration seeks for the 
Bureau, are best represented by the President's 2008 budget. 
And--
    Chairman Biden. Well, you know, in 2006, the FBI brought 34 
percent fewer criminal cases to Federal prosecutors than in 
2000. The FBI sent prosecutors only 3,500 white-collar crimes 
in 2005 compared to 10,000 in 2000. And the FBI pursued 65 
percent fewer hate crimes in 2005 than 2002. Director Mueller, 
testifying before this Committee at the end of 2006, said that 
he has to rededicate 1,000 FBI agents to dealing with the 
bureau within a bureau, as you reference it. And my 
understanding from very reliable sources, at least in my years 
of working with the FBI, is that the FBI asked for more agents 
this year and the request was denied.
    I have introduced a bill that would allocate $160 million a 
year to add 1,000 additional FBI agents dedicated to fighting 
crime because, you know, it is kind of fascinating. I do not 
know how--it is just fascinating, you know, only Orwellian 
Washington-speak that we can talk about cutting 1,000 FBI 
agents out of dealing with local law enforcement and say that 
you are sending $200 million to deal with local law enforcement 
problems, and that somehow we are able to do--it reminds me of 
Ed Meese in fighting the crime bill, we can ``do more with 
less.''
    Now, I assume that means that something else is going on, 
that there is no need for these 1,000 agents that were 
involved, that have been redirected to terrorism. Is it that 
the terrorism money is affecting violent crime in the street. 
Is the counterterrorism work of the FBI, you know, impacting 
positively on street crime in Milwaukee or Philadelphia or 
Wilmington, Delaware? Is that part of the argument?
    Mr. Epley. Mr. Chairman, I do not know what effect--we can 
get back to you--the counterterrorism, counterintelligence 
investments that have been made post-- 9/11 have had on violent 
crime.
    Chairman Biden. I can tell you it has not had any, but you 
can check it out. Well, look, there used to be those old 
movies, all those old B movies, ``Smokey and the Bandit.'' What 
we have here is we have ourselves, our communications problem. 
You guys view the world of violent crime and the problem that 
localities and the Federal Government faces starkly differently 
than I do. And the inability to provide the resources that we 
were providing and increase the resources because of the 
increased strain on the FBI I find very difficult.
    Now, I know it is not your job. You are not at OMB. You do 
not get to make those hard decisions. But there is a clear 
distinction here. You know, for example, just providing a tax 
cut--this is above both our pay grades. But just providing a 
tax cut for those who make an average of $1.45 million a year, 
that is an $85 billion a year expenditure. All I am asking for 
is about $2.1 billion out of that for local law enforcement 
like we did before.
    But there seems to be a sense that--and the argument you 
are making--I understand it--is that we really do not need it. 
More cops are not really going to make any impact on violent 
crime in America. The violent crime problem is much lower than 
it has been at any time in recent history, although it has 
gone--there has been an uptick. And, therefore, we are 
copacetic. Things are going along pretty well right now.
    You probably do not have the time, but you might find it 
interesting to hang around and hear the testimony of the people 
who are about to testify.
    For the record, are you at liberty to provide us with the 
18 localities you went to and observed to reach your 
conclusions that there is nothing needed more than what you 
have asked for? Are you prepared to do that?
    Mr. Epley. Yes, sir. We can make those communities 
available.
    Chairman Biden. I would appreciate that.
    Mr. Epley. Mr. Chairman, if you would indulge me just one 
moment.
    Chairman Biden. Sure.
    Mr. Epley. I just want you to know that we do not view it 
as copacetic. The fact that certain crimes in certain 
communities are going up and many communities are facing a 
violent crime challenge, we think that is a serious matter and 
that we are looking for ways to most effectively partner with 
those communities to make a difference.
    Chairman Biden. Well, you know, there is an old expression 
attributable to G.K. Chesterton. He said, ``It is not that 
Christianity has been tried and found wanting. It has been 
found difficult and left untried.''
    I would paraphrase the nice rhetorical comment of the 
Attorney General saying it is difficult to hope when you live 
in fear of crime. I would argue it is difficult to cope with 
fewer COPS and it causes crime.
    But I thank you for your testimony, and like I said, we 
have a fundamental, basic, distinct disagreement. I 
fundamentally disagree with the administration. And I am going 
to do everything I can to make it difficult for you not to 
accept more money.
    Thank you very, very much. I appreciate it.
    Mr. Epley. Thank you.
    Chairman Biden. By the way, as you are leaving, one of the 
other things is that you talked about the DEA and the FBI. Talk 
to your DEA guys about the hiring freeze that is on and tell 
them--just, you know, do your own little survey. Go out in the 
field and ask them whether or not they think they can cope with 
this hiring freeze. The impact of the freeze and the loss of 
the positions that exist is expected to amount to 180 fewer 
primary drug organizations than we are able to disrupt or 
dismantle today and most likely approximately $300 million less 
in revenue they will be able to deny drug traffickers. That is 
the study that has been done by the DEA.
    But, at any rate, you ought to go talk to those guys. You 
know, get in the car and ride with them, like I do. I think you 
may find it is a little bit different.
    Anyway, thank you very much, and I appreciate your being 
here.
    [The prepared statement of Mr. Epley appears as a 
submission for the record.]
    Chairman Biden. Our next panel, Ted has already been 
referenced about eight times here, so I do not think I have to 
introduce you again, Ted. Tom Nee, the President of the 
National Association of Police Organizations. Chief Rick 
Gregory, Chief of Police of New Castle County, Delaware. Mayor 
Douglas Palmer, Mayor of Trenton, New Jersey, and the President 
of the United States Conference of Mayors. And Chief Russ 
Laine, the Vice President of the International Association of 
Chiefs of Police. And James Alan Fox, a criminologist from 
Northeastern University.
    I welcome you all. I will put each of your bios in the 
record in the interest of time, but it is a very distinguished 
panel. I want you to know I am not being merely parochial, 
having the chief of the second largest police organization in 
my State here. The New Castle County police and his 
predecessors helped draft the Biden crime bill, literally not 
figuratively. They were one of the lead agencies and, I would 
argue, they have one of the best records in implementing 
community policing in the country. That is why I wanted him 
here.
    I see the mayor is not here yet, so we will proceed, and 
when he gets here, if he is coming, we will have him join us at 
the table.
    Why don't we start in the order in which you were--we will 
go left to right, with you, Sheriff, and work our way across to 
you, Professor, and then we will get into some questions if we 
can. Welcome.

   STATEMENT OF TED KAMATCHUS, PRESIDENT, NATIONAL SHERIFFS' 
                ASSOCIATION, MARSHALLTOWN, IOWA

    Sheriff Kamatchus. Thank you, Mr. Chairman and members of 
the Committee. My name is Ted Kamatchus. I am the Sheriff of 
Marshall County, Iowa, and the President of the National 
Sheriffs' Association. I am pleased to have this opportunity to 
appear before you today to express my concerns and what I know 
to be the concerns of sheriffs all across the country with the 
recent increase in violent crimes coupled with severe 
reductions in Federal assistance to State and local agencies.
    The essential message that I bring to you today is that the 
Federal Government needs to play a larger role in crime 
fighting. Together we need a coordinated national attack on 
crime, recognizing that there is no single ``silver bullet'' 
solution. Political rhetoric must not prevail over action. This 
is not a Republican or Democrat issue. This is an ``us'' issue. 
It is for the citizens across this country.
    As you may be aware, sheriffs play a unique role in our 
criminal justice system. In addition to providing traditional 
policing within their respective counties, sheriffs also 
facilitate local jails and are responsible for protecting and 
providing security for the judicial system. Over 99 percent of 
the sheriffs are elected and oftentimes serve as the chief law 
enforcement officer of their counties. Consequently, they have 
a keen understanding of the needs of our criminal justice 
system as well as of the local communities which we serve.
    In the early 1990s, Congress joined in a partnership with 
local law enforcement to provide assistance in Federal funds 
for hiring additional officers to put offenders behind bars and 
fight the war on drugs. Unfortunately, in recent years, the 
Federal Government has strayed from its commitment to fight 
crime.
    The majority of violent crimes we have recently been 
experiencing have been related to drugs and an increase in gang 
violence. Sheriffs have not been able to hire the number of 
deputies they need to address these issues, and in many 
jurisdictions, current levels of staffing only allow peace 
officers to respond from one 911 call to another. Stacking 
calls is not safe.
    For nearly 30 years, Byrne-JAG grants have funded State and 
local drug task forces, community crime prevention programs, 
substance abuse treatment programs, prosecution initiatives, 
and many other local crime control and prevention programs. It 
has not just been drug task forces. We perceive these programs 
as the underpinning of Federal aid for local law enforcement to 
address violent crimes. Continued reduction in Byrne funding 
will undoubtedly obliterate the successes that we have all 
helped to achieve together.
    In most States, Byrne-funded drug task forces are the 
cornerstone of drug enforcement efforts. These task forces 
represent the ideal in law enforcement, pooling limited 
resources, sharing intelligence, strategically targeting a 
specific problem, and eliminating duplication of efforts. 
Moreover, these task forces allow Federal, State, and local law 
enforcement and prosecutors to work together and share 
intelligence to stem large-scale organized crime. However, most 
States have had to scale back on the number of such task 
forces.
    Also, I cannot emphasize enough the importance of the COPS 
programs, particularly in the funding for the programs I have 
mentioned distributed directly to local law enforcement 
agencies--those that can best assess and allocate funds where 
they have the most impact. COPS programs assure the quality of 
policing services through better training and the highest 
technology equipment possible.
    We have heard time and time again that ``homeland security 
begins with hometown security.'' Yet vital programs such as 
Byrne and COPS that provide the necessary resources to ensure 
that hometown security have both been cut drastically, and the 
hiring initiatives for COPS have been zeroed out in most recent 
years. It is of no surprise to those in the law enforcement 
community that since law enforcement programs have been 
depleted, the crime rate has been rising. We urge this Congress 
to restore funds for the important public safety programs of 
Byrne and COPS. We want that $1.1 billion for Byrne and the 
$1.15 billion for COPS. We would also like to express our 
thanks to you, Senator Biden, and also to Senator Feinstein for 
taking a leadership role in their efforts to restore funding 
for these two essential law enforcement programs.
    In addition to highlighting the importance of the Byrne and 
COPS programs, I would also like to urge the Senate to take 
action on some measures that we believe will assist local law 
enforcement in helping to address violent crime. The National 
Sheriffs' Association has endorsed the Gang Abatement and 
Prevention Act aimed at increasing and enhancing law 
enforcement resources committed to investigation and 
prosecution of violent gangs; the Second Chance Act which would 
begin to address the Nation's escalating recidivism rates; and 
the Methamphetamine Production Prevention Act, cosponsored by 
my friend from Iowa, Senator Grassley, which would facilitate 
the use of electronic methamphetamine precursor logbook systems 
in order to help States crack down on domestic meth production; 
and, as was earlier mentioned, the PRECAUTION Act. We heard 
earlier from Senator Feingold, and early in his statement, he 
indicated that it will provide guidance in a direct and 
accessible format to State and local law enforcement to ensure 
that the criminal justice community is investing its limited 
resources in the most cost-effective way possible.
    Mr. Chairman, I would like to note that over 20 sheriffs 
from border States were in Washington about a month ago, and we 
are really concerned about this border initiative. The 
immigration problem that we are seeing and the border security 
are major, major issues for us. It is more than just an issue 
of immigration. It is an issue of proliferation of drug 
cartels, drugs, and actually the movement of contraband, which 
are drugs, weapons, and people. We need something done about 
that, and we ask that you hear those sheriffs, because they are 
there every day on the borders fighting to help the Federal 
Government.
    I want to thank you for the opportunity to come before you 
and express my concerns. I hope I have conveyed to you the dire 
situation that sheriffs are faced with across this country and 
how critical Byrne and COPS programs are to us. The strain 
caused by limited funds for law enforcement programs in the 
face of increasing violence and drug abuse in our communities 
should be a major inducement for Government and law enforcement 
alike to share the responsibility for keeping our communities 
safe. I ask for your full consideration on my comments today, 
and I know that through your commitment and the efforts 
together we can make our communities safer.
    I want to thank you very much.
    [The prepared statement of Sheriff Kamatchus appears as a 
submission for the record.]
    Chairman Biden. Thank you very much, Sheriff.

STATEMENT OF THOMAS J. NEE, PRESIDENT, NATIONAL ASSOCIATION OF 
          POLICE ORGANIZATIONS, BOSTON, MASSACHUSETTS

    Mr. Nee. Good morning, Mr. Chairman. My name is Thomas Nee. 
I am a police officer in the city of Boston. I serve as the 
President of the Boston Police Patrolmen's Association.
    Chairman Biden. I thought you were from Selma, Alabama, 
with that accent.
    [Laughter.]
    Mr. Nee. Not with this accent, sir.
    Chairman Biden. Welcome.
    Mr. Nee. I also have the honor of serving as the President 
of the National Association of Police Organizations, 
representing 238,000 sworn law enforcement officers throughout 
the United States.
    This morning, in my testimony, as police officers, as corny 
as it sounds, we have a duty to serve and protect. As the men 
and women on the front lines to enforce the law, we have a 
right, really, and a need for the Federal Government to stand 
beside us and support us in those efforts in our communities. 
That is why I am here today on behalf of America's law 
enforcement community speaking to you today. America's State 
and local law enforcement are being disregarded by the current 
administration. They are being passed over for critical funding 
to assist them in performing their roles in combating and 
responding to crime and urban terrorism.
    There are three issues that I will address this morning 
that are of increasing concern to us at NAPO and our 
membership: the decrease in funding for vital Department of 
Justice State and local law enforcement assistance programs 
witnessed over the past several years; the additional duties 
taken on by local law enforcement agencies in the post-9/11 
era; and finally, the recent increase in crime rates 
experienced by communities nationwide. These issues are 
interrelated and cannot be separated, particularly when 
addressing the issue of rising crime in the United States.
    The COPS program, together with the Local Law Enforcement 
Block Grant program and the Byrne Memorial Fund, gave State and 
local law enforcement the necessary funding to truly assist 
their efforts in keeping our Nation's communities safe. These 
justice assistance programs have contributed countless 
resources to help us combat and fight crime. I would also like 
to point out, Mr. Chairman, that those funds simply were not 
for hiring. They were also for retention, which is an important 
component of it, and with your support these Federal grant 
programs can be restored.
    With the support of these Federal grant programs, community 
policing has been a dominant force behind the dramatic 
reduction in crime this Nation has witnessed over the past 13 
years. In 2000, violent crime rates were at their lowest level 
in 30 years, particularly in our major cities. More police 
officers patrolling the streets not only provide greater police 
presence in our communities but also increase police knowledge 
of crime as well, thus allowing local law enforcement to do its 
job in its communities.
    A key factor in the implementation and success of community 
policing has been the Federal support through funding and 
resources to State and local law enforcement agencies. It is 
not a coincidence that community policing was at its best and 
national crime rates were at their lowest when Federal support 
for programs such as COPS, the Byrne grant, and LLEBG was at 
its highest. And it is also no coincidence that the steep 
reduction in Federal support for these programs corresponds 
with the increases in violent crime rates nationwide.
    Listening to the earlier testimony, I have an absolute 
positive, fundamental disconnect with what was represented by 
the administration because we have captured a small sample of 
what is going on in the country and some of our samplings in 
some of the major cities.
    A December 2001 study by researchers at the University of 
Nebraska at Omaha found that the COPS program is directly 
linked to the historic drop in U.S. crime rates in the 1990s. 
The ``More Cops = Less Crime'' statistical analysis produced by 
you, Mr. Chairman, together with Congressman Weiner, gives 
further evidence to the link between the COPS grants and the 
decreases in crime from 1995 to 2000.
    According to the ``More Cops = Less Crime'' evaluation, the 
effects of the COPS grants from fiscal year 1994 to fiscal year 
1999 on violent crime during that 1995-2000 period were 
substantial. Approximately $2 billion was provided nationally 
in hiring grants and over $3.6 million was provided in 
innovative grants to cities with populations over 10,000. 
Nationwide, police departments in these cities reported that 
occurrences of violent crimes decreased by well over 150,000 
between 1995 and 2000.
    Phoenix, Arizona, for instance, received $23.5 million in 
COPS hiring grants and $2.34 million in COPS innovative grants. 
Phoenix law enforcement estimates that these funds helped 
reduce reports of violent crime by over 1,500 incidents and 
reduced overall crime by 7,679 incidents. Los Angeles, 
California, received nearly $194 million in COPS grants and 
$2.3 million in COPS innovative grants between fiscal year 1994 
through 1999. And during this time, violent crimes were reduced 
by 10,500 incidents and overall crime in the city by 53,435 
incidents.
    Phoenix, Arizona, law enforcement agencies have had to 
redeploy their officers and resources to infrastructure 
protection such as water treatment facilities, Arizona Public 
Service power stations, airports, among other infrastructure. 
More importantly, they seem to have a pair of handcuffs on them 
with the immigration problem down there. Phoenix has seen 
record increases in violent crime. Again, to show the 
disconnect between the administration and what we are 
experiencing on the street, in 2005-06 the city saw a nearly 5-
percent increase in violent crime rates, including a 4.5-
percent rise in homicides and an over 6--percent rise in 
aggravated assault. In 2004 through 2006, Phoenix law 
enforcement saw an astounding 12-percent increase in homicides 
and an almost 20-percent increase in aggravated assault over a 
2-year period.
    Los Angeles, California, has seen a substantial amount of 
resources shifted to homeland security details also. Hundreds 
of law enforcement officers have been assigned to terrorism 
prevention issues to protect infrastructure, terrorism task 
forces, and counterterrorism duties. Although L.A. has seen a 
decrease in the overall level of violent crimes, including 
murder, it has seen significant increases in gang-related 
homicides and violent murders.
    In New York City, the city has lost over 4,000 policemen 
absent from the streets of New York since 1999, and that is up 
to and including the 9/11 era. After 9/11, the city added an 
additional 1,000 police officers to counterterrorism 
activities. So that is 5,000 policemen missing from the streets 
of New York City, and that is not even comprehensible in our 
world.
    In Boston, my home city, the Boston miracle, as it was 
called, in the 1990s, it was a national model for policing 
around the country. Recently, we have seen an increase and a 
spike in violence. Between 2004 and 2006, reported homicides 
alone increased nearly 23 percent in the city of Boston--the 
highest homicide rate the city has seen in 11 years. In 2004 to 
2006, we have seen a 10-percent rise in robberies and a 
staggering 37-percent rise in aggravated assaults involving 
firearms.
    Mr. Chairman, I can add more testimony from Houston, Texas, 
their statistical analysis; Detroit, Michigan. I do not know 
where the administration is sampling, sir, but we are 
experiencing it in the street, and we represent most of the 
major cities in the country, the rank-and-file line officers. 
We have our problems today.
    The biggest problem of all is I think what the chiefs will 
share with you as well as the rank-and-file testimony here 
today. It will be in our major cities around the country post-
9/11. We have experienced anywhere from 15 to 18 percent of our 
staffing is missing from the streets, and I agree with you, Mr. 
Chairman, as we have in the past. If you do not cover all four 
corners of the blocks, the genie is out of the bottle. And we 
can have all the task forces we want and all the prosecution 
methods behind it, but that is after we lose. That comes in at 
the eleventh hour, and that is not a good thing. We are 
suffering right now out here in the streets. We are doing our 
very best to keep the borders of this country safe, and we need 
the efforts of the United States Federal Government to complete 
the task at hand.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Nee appears as a submission 
for the record.]
    Chairman Biden. I think they spent most of the time down in 
Crawford getting the crime statistics. I do not know.
    I should not be so flippant because this is such a serious 
subject.
    Before we go to you, Colonel, I just want to point out one 
thing, just for the record. If you take a look at the crime 
statistics--I just want this to be in the record. Let me find 
them here. Take a look at the crime statistics. Let us assume 
that what is stated is true. The number of crimes committed in 
the year 2006, whether they are up or down, they are still way 
beyond what a civilized society should be accepting. So this 
premise that as long as--and I will submit that for the record. 
This premise that as long as it is not really going back up 
above what it was pre-- crime bill that somehow things are OK 
is, I find, a preposterous notion. The first primary function 
of Government is to keep folks safe so they can walk the 
streets.
    I thought I had them right at hand. I apologize for the 
intervention, but I will submit them for the record so that we 
know just how high the low is. It is still very high.
    Chief, welcome. And, by the way, I might add I am being 
very parochial here. We have a whole bunch of what I 
facetiously refer to as ``my guys'' here. We have the Chief of 
Dover, Delaware, Smyrna, Delaware, South Bethany, Delaware 
State Police, the Delaware Police Chiefs Council, the 
Lieutenant of New Castle County, and Corporal Trinidad, who 
speaks for all of them when they need to be spoken for. I 
welcome you all here today, and I hope I get a chance to spend 
a little time with you.
    But, again, I am not just being parochial when I do that, I 
say to my friend from Wisconsin. These are the folks that 
helped write that first bill. They really did. This one did not 
come out of--no one handed it down. And, by the way, NAPO was 
the single biggest help at the time when we started this thing 
off. Thank you for your continued support.
    No more advertising. Chief, fire away.

   STATEMENT OF RICK S. GREGORY, CHIEF OF POLICE, NEW CASTLE 
                        COUNTY, DELAWARE

    Chief Gregory. Good morning, sir, and thank you for the 
opportunity to be here with you this morning and the 
distinguished members of your panel and Committee and also my 
fellow law enforcement professionals. I am the Chief of Police 
for New Castle County. I have been there since the last day of 
September in 2006. It is the second largest agency in the State 
of Delaware and, as you mentioned, a pioneer agency in 
community policing in the State of Delaware.
    Our agency consists of 364 officers, We cover about 426 
square miles with about 450,000 citizens. During 2006, our 
officers responded to or handled approximately 162,000 calls 
for service. For the year 2007, we will surpass that mark 
considering that we have already handled some 82,000 calls for 
service.
    Recently, we have become predominantly a call-driven or 
911-driven agency. The bulk of our time is responding from one 
911 call to the next. This is not effective community policing, 
as you know. In our agency and in our county, we are seeing a 
level of violence such as the armed robbery of a pizza delivery 
person as a commonplace criminal act. From 2005 to 2006, we saw 
a 38-percent increase in these types of robberies. This type of 
crime has made violence impersonal and second nature to many 
offenders. People are shot for reasons for simply being on the 
wrong side of the street or for saying the wrong things, and we 
must curb this growing trend. While doing so, we have to also 
realize that we are going to be doing it with less Federal 
resources unless we can have some help.
    A recent article in USA Today entitled ``Youth Gangs 
Contribute to Rising Crime Rates,'' May 15, 2007, stated, 
``increasing violence among teenagers and other youths appears 
to have contributed to a nationwide crime spike.'' This trend 
is only the beginning of what we sure believe is going to be an 
increase for the future.
    We in Delaware, and specifically New Castle County, are not 
immune from the national trend. Last summer one of our 
communities was bombarded with gang violence that eventually 
led to a full-scale brawl between rival gangs. One was on one 
side of the street and one was on the other side of the street, 
not realizing they were rival gang members until they began 
communicating with hand signals that led to a brawl. One person 
was shot, one person was stabbed, one was killed. Twelve 
subjects were arrested for this battle, and of those twelve--
and this is the alarming part--six of them were juveniles. When 
considering this homicide and the comments from the USA Today 
article, we try to remember that we are discussing juveniles 
with weapons. Firearms in the hands of adults are deadly, but 
consider firearms in the hands of an immature gangster wannabe 
at the ripe age of 13. It is astounding.
    The successful investigation of this case and ultimate 
prosecution was, in large part, due to the expertise offered by 
our federally funded gang officer. The Federal funding for this 
officer from the Edward Byrne Memorial Fund allows us to 
dedicate an officer to the growing problem of gangs and gang 
violence. Additionally, Federal money spent on the community 
crime intervention program allows us to dedicate a Spanish-
speaking officer to a specific area that is troubled with the 
problems of Hispanic gang influences. Together these officers 
provide invaluable intelligence on our gangs. Communities 
without Federal funding have difficult dealing with these types 
of problems.
    Many of these juveniles, as we know, start their life as 
delinquency runaways. From 2002 until 2006, our agency saw a 
22-percent increase in the number of juvenile runaways. This, 
in effect, is a 22-percent increase in the number of kids 
primed for recruiting by gangs and the gang culture.
    One initiative that is working very effectively in Delaware 
is the Safe Streets program, a collaborative effort involving 
the four largest police agencies and the Department of 
Corrections. Combined Federal money in support of this program 
is close to $1 million. Money spent on ventures such as this 
are truly effective weapons in the everyday battle to reduce or 
contain violent crime. Expanded measures in this regard remove 
repeat offenders from our communities and free up time for our 
officers to return to the job of community policing.
    With that, I come with a request that the expansion of 
programs such as Safe Streets, gang officers, and community 
crime intervention officers. Allowing a small number of 
officers to have a magnified and directed impact on communities 
that are most needing of our help will make an impact. In 
addition, their efforts serve to rid the communities of repeat 
offenders, which frees up the officer on the street to spend 
more time in their communities working to break this increasing 
cycle of violence. While these positions are of great value, 
their longevity is limited due to the funding source. Byrne 
money, which funds these positions, is an excellent resource, 
but it is not a suitable device for hiring officers. COPS 
money, as you well know, with its 3-year hiring grant is a 
better funding source for stability reasons. Federal money 
spent on these proven successful endeavors is money well spent 
on the security of our communities.
    I would like to take the opportunity to thank you for 
allowing me to come today. I want to thank you also for the 
leadership that you have proven time and time again. I am not 
new to community policing. I am new to the area. But I can tell 
you that nationally we appreciate your leadership and support 
in what we do.
    [The prepared statement of Chief Gregory appears as a 
submission for the record.]
    Chairman Biden. Thank you.
    Mr. Mayor, you have a job most of us up here would not take 
on a bet, the most difficult job in America. I really do think 
being the mayor of a major city is the epicenter of requiring 
political skill. I am flattered you are here. We had a chance 
to talk when we spoke to the National Mayors Conference, and 
your input and the input of your colleagues is vitally 
important here, and I am delighted you would take the time to 
be here. I know you have got a lot of other things to do, but 
thank you very, very much for being here. I am anxious to hear 
what you have to say.

   STATEMENT OF HON. DOUGLAS H. PALMER, MAYOR, TRENTON, NEW 
   JERSEY, AND PRESIDENT, UNITED STATES CONFERENCE OF MAYORS

    Mayor Palmer. Thank you, Senator, and it is a pleasure for 
me to be here. My name is Douglas Palmer. I am the mayor of 
Trenton, New Jersey, and I have the honor of being the 
President of The United States Conference of Mayors, whose 
membership represents 80 percent of the population of the 
United States of America. We also want to thank you, Mr. 
Chairman, for coming to our January meeting and discussing our 
ten-point plan, one point of which we are talking about, the 
COPS program, strong cities, strong families, for a strong 
America. And quite frankly, you cannot have strong cities if 
you do not have safe cities.
    As you were talking to Mark Epley--and he seems like a nice 
enough fellow. I had the opportunity to serve on a few panels 
with him. And I was just realizing as you were grilling him--I 
mean talking to him, President Bush does not pay him enough 
money for what he has to do. And, actually, what he has to do 
is really go against logical thinking in what we see the trends 
are.
    We want to also thank you for your leadership, and I know 
President Clinton talks about the Clinton crime bill, and he 
certainly was a large part in that. But we also know that it is 
the Biden crime bill that helps put us on the right track.
    You know, a little over 400 days ago, while I was in Los 
Angeles with Attorney General Gonzales at an event talking 
about crime, my police director got a call. It was a Friday 
afternoon, a lovely spring afternoon. I think it was the 1st of 
April. And he got a call, because we had experienced some gang 
violence and retaliation earlier in the week that a 7-year-old 
girl by the name of Tajhanique Lee, while riding her bike, what 
every young child should be doing on a nice warm spring day, 
was caught up in the crossfire of two rival gangs, and this 
beautiful young girl was shot in the face. Fortunately, God 
spared her life, and she is still a beautiful young lady. But I 
had the task, like many of my colleagues, mayors and police 
chiefs--and I am really honored to be with these individuals--
to talk to her mother about 2 hours after it happened in the 
hospital. Far too often, mayors have to make these calls. 
Mayors have to go to the funerals of law enforcement people, of 
law-- abiding citizens and children far too often. We certainly 
are on the front lines.
    I would ask Mark--and I know he left, but I would like him 
to come to Trenton. If he thinks things are copacetic, the 
status quo is acceptable, I plead with him to come to the city 
of Trenton where we have seen a reduction in crime, almost 27 
percent, but an increase in homicides directly attributable to 
drugs, illegal guns, and gangs. Our homicide rates go up, as I 
think these individuals can tell you, fueled by guns, illegal 
guns in the hands of criminals, and drugs, which is a part of 
that, and gangs.
    While we have reduced crime, the fear level is as high as 
ever. It is not American to be afraid to sit out on your porch 
in the afternoon. It is not American to have your children not 
use a park that we have paid for because it is not safe. This 
is just not American.
    We also see that this is attributable in part because of 
the rise in juvenile crime. We see a culture today that is 
almost a subculture, and we see young people very willing to 
join gangs, to be lured into gangs, use illegal weapons and to 
shoot each other. It is just astonishing to me that the 
administration would think that because certain areas in this 
country are not experiencing an increase in violent crime that 
everything is OK. It is almost like if you have heart problems, 
do not take any medicine, wait until you have the heart attack.
    Well, we need medicine. We need the kind of support that 
you have had and shown over the years. We urge Senate passage 
of the COPS reauthorization bill sponsored by yourself, urge 
passage of your Second Chance Act to help with prisoner re-
entry, which is critically important. And the U.S. Conference 
of Mayors has endorsed Senator Feinstein's Gang Abatement and 
Prevention Act of 2007 and urge passage. And, of course, the 
COPS and the Byrne block grants should be fully funded this 
year.
    You cannot have homeland security and not have hometown 
security. And the point you made was very well taken. We do 
need 1,000 more FBI agents because our police will tell you 
that when they used to have the partnership with the Federal 
Government to have FBI work with them on these very serious 
cases, now they are fighting counterterrorism. And that is 
fine. But we need additional FBI agents to come and work with 
our local law enforcement to help federally put these bad guys 
away.
    We truly need this Federal partnership. When we see school 
violence is on the rise, we know our police have to use more 
resources there. And what is also troubling for us without a 
Federal partnership is that the police--and they will tell you, 
and mayors will tell you--we will have to spend whatever we 
have to make our citizens safe, and that means a lot of times 
using resources that we would have for parks, for economic 
development, for senior citizen programs, for things that are 
the lifeblood of a city, that help sustain a city, that help 
make cities livable, we have to take those moneys away for law 
enforcement because our Federal partners are not at the table 
with us.
    So we urge that through your leadership this be done. It is 
unfortunate that the administration--I hope somebody from the 
administration is here to listen to these individuals whose 
officers put their lives on the line each and every day, whose 
mayors fight the good fight each and every day. But like in 
everything else, we need a Federal partner. This is a Federal 
responses needed in a partnership to deal with this problem. It 
has worked in the past, and we know with the resources that it 
will work for all of us in the future.
    Thank you.
    [The prepared statement of Mayor Palmer appears as a 
submission for the record.]
    Chairman Biden. Mr. Mayor, I am going to place in the 
record, by the way, for each one of you your bios and what I 
had prepared for you. But I must say you have done a remarkable 
job. I know Trenton relatively well. I know New Jersey pretty 
well. And with all due respect, Mr. Mayor, not every mayor in 
America is making the choices you have made. You are making 
some tough choices between, figuratively speaking, street 
lights and cops. And you are making them for cops. But a lot of 
other mayors are not either able to or think they should make 
those choices, and it is truly remarkable that you are running 
against the trend here because your crime rate is down. Your 
crime rate is down.
    But one of the things that caused me to draft that 
legislation back in the early 1990s was the thing that 
frightened people the most is the randomness of crime. The 
randomness. All the studies that we have done and read and all 
the hundreds of hours of hearings, most people thought they 
could protect themselves against being victimized by putting 
themselves in a position where they avoided the bad 
neighborhood, the bank teller, the ATM machine at midnight, 
walking in a certain--they thought they could do that. But what 
happens in your city and every other city, and the nature of 
the change in the crime, demonstrates once again it is totally 
random. There is nothing you can do in many cases to give 
yourself the sense that you are out of harm's way. It is not 
just avoiding ``the bad neighborhood.''
    So, anyway, I just wanted to state for the record that I 
think your leadership of the National Conference of Mayors has 
been remarkable. But, more importantly, your day-to-day hands-
on leadership in Trenton, New Jersey, has been remarkable. And 
I just want to note that for the record. And I am sure my 
Republican colleagues, if they were here, would say the exact 
same thing. It has been remarkable.
    Mayor Palmer. Well, Senator, I just would like to say our 
homicide rate is up, though. Our regular--
    Chairman Biden. I know that. But your overall crime-- but 
my point is that is what is happening all over. What is 
happening all over is you see these trends. The homicide rate 
is up, gun crimes are up. You also find gangs are up. MS-13 is 
becoming visible. It is a little bit like when-- Ted will 
remember--15 years ago--that is not true--17 years ago, I was 
in Iowa--having nothing to do with what Senator Grassley 
referenced of running for President--as a United States Senator 
in Iowa and warning that ice was coming, methamphetamine was on 
its way, and how it was coming and wrote a very extensive 
report.
    And you look around the corner, juvenile crime is up. I 
would argue one of the reasons juvenile crime is up is because 
community policing is down, because school resource officers 
are not available any longer, because the gang initiatives have 
been cut, because when you make choices, you have got to make 
very hard choices in the allocation of these moneys.
    So I do understand certain aspects of crime are up, but 
overall it has been remarkable what you have done in the face 
of these significant cuts. Chief, welcome. It is great to have 
you here.

     STATEMENT OF RUSSELL B. LAINE, SECOND VICE PRESIDENT, 
   INTERNATIONAL ASSOCIATION OF CHIEFS OF POLICE, ALGONQUIN, 
                            ILLINOIS

    Chief Laine. Thank you, Mr. Chairman. Good morning, and 
good morning,
    Senator Kohl. My name is Russell Laine, and I serve as the 
Chief of Police in Algonquin, Illinois. For those of you 
unfamiliar with the area, Algonquin is a community of 
approximately 33,000 located about 40 miles northwest of 
Chicago.
    I am here today as the Vice President of the International 
Association of Chiefs of Police representing over 20,000 law 
enforcement executives throughout the world. I am pleased to be 
here to discuss the challenges currently confronting the U.S. 
law enforcement community and our need for an increased level 
of support from the Federal Government.
    In the United States, there are more than 18,000 law 
enforcement agencies and well over 700,000 officers who patrol 
our State highways and the streets of our communities each and 
every day. During the past 15 years, these officers, and the 
law enforcement agencies they serve, have made tremendous 
strides in reducing the level of crime and violence in our 
communities. This has been accomplished in part because these 
officers have an intimate knowledge of their communities and 
because they have developed close relationships with the 
citizens they serve.
    Yet despite the best efforts of our Nation's law 
enforcement officers, the disturbing truth is that each year in 
the United States, well over a million of our fellow citizens 
are victims of violent crime. Unfortunately, in the last 2 
years we have seen a steady increase in the rate of violent 
crime in the United States. According to the Uniform Crime 
Report, violent crime rose at a rate of 2.5 percent during 
2005. To put that in perspective, that is an additional 31,479 
victims.
    Unfortunately, this increase in the crime rate appears to 
be accelerating. For the first 6 months of 2006, the crime rate 
rose at a rate of 3.7 percent, when compared to the same 
timeframe in 2005. If this rate holds for the final 6 months--
and I am sorry to say that I believe it will--it will mean that 
an additional 47,000 Americans will find themselves as victims.
    While there are many different theories as to why violent 
crime is increasing in these communities, after years of often 
double-digit declines, there is one fact that we all can agree 
on: no one is immune from crime. What were once considered 
``urban'' problems--drug addiction, drug distribution, violent 
crime, gangs, and poverty--have migrated to suburban and even 
rural communities. Gangs, guns and drugs are everywhere.
    In many ways, my hometown of Algonquin typifies the 
problems that are plaguing many American communities. 
Traditionally, the Algonquin Police Department has not had to 
deal with the same level of crime and violence that has 
confronted larger communities and cities. For example, nearly 
22 years ago when I first arrived in Algonquin, the pressing 
issues facing the department were dealing with curfew 
violations, traffic issues, parking issues, and stray cows and 
horses that wandered onto main thoroughfare.
    Today, that thoroughfare is an eight-lane highway, and the 
Algonquin Police Department is dealing with more dangerous 
criminals who are committing increasingly violent crimes. For 
example, Algonquin just experienced a rather infamous first in 
the history of our community: our first drive-by shooting.
    In years past gang activity within Algonquin could be 
accurately described as local youth wannabes who thought they 
were acting cool and seeking an identity for themselves, and 
sometimes we had the random contacts with hard-core gang 
members from other towns who were merely passing through 
Algonquin going from one community to another. Today there is 
an active gang presence within our community, and the attendant 
violence is increasing both in frequency and intensity.
    I think it is safe to say that the days of worrying about 
stray cows are over.
    And it is not just gang-related and other violent crimes 
that are on the increase. We are witnessing a rise in property 
crimes and, like many communities around the country, a new 
wave of financial and identity crimes.
    Another example of this chilling trend in the Midwest is a 
new drug called ``cheez,'' a mix of black heroin and Tylenol. 
It is mostly sold to minors and is becoming available in the 
high schools. As you can imagine, responding to and 
investigating all of these crimes is labor intensive and a 
time-consuming process.
    Unfortunately, our ability to do this is becoming 
increasingly strained. To be blunt, our resources are stretched 
to the limit. As a result, we have not been able to add the 
additional officers that would allow us to combat these 
criminals aggressively. We have not been able to take advantage 
of necessary training that would leave our officers better 
prepared to confront the new breed of criminals operating in 
our community. And we have not been able to acquire the 
sophisticated technology to help us in our crime fighting and 
which is available to the bad guys.
    It is telling that this increase in violent crime, drug 
sales, and gang activity in America corresponds directly to the 
substantial decline in funding for State, tribal, and local law 
enforcement from the Federal Government assistance programs.
    I will not use my time here this morning to enter into a 
prolonged discussion of the current budget situation, but I 
would ask that I be able to submit a copy of the IACP's Budget 
Analysis for the record.
    Chairman Biden. Without objection, it will be placed in the 
record.
    Chief Laine. Thank you.
    I do believe it is important to note that when compared to 
the fiscal year 2002 funding level of $3.8 billion, the 
administration's fiscal year 2008 proposal represents a 
reduction of more than $3.2 billion, or 85 percent, and, 
unfortunately, no program has been hit harder over the last 
several years than the COPS program.
    These cuts are particularly troubling because the IACP 
believes that the COPS program played an integral role in our 
ability to reduce crime rates in the past. By providing law 
enforcement agencies with the necessary resources, training, 
and assistance, the COPS program has become an invaluable ally 
to State, tribal, and local law enforcement agencies. It is 
this fact that makes the current situation completely 
unacceptable, not only to the Nation's entire law enforcement 
community, but also to the citizens we are sworn to protect 
from both crime and terrorism. It is an undisputed reality: 
State, tribal, and local law enforcement agencies are on the 
front line of effective terrorism prevention. If you recall 
earlier, it was brought up that--the question was whether 
terrorism affects violent crime on the street. I would suggest 
that what really happens, it is the work that the men and women 
in law enforcement do on the street in their communities and 
the State highways that really affects how effective we are on 
terrorism.
    We willingly accept the new responsibilities in combating 
terrorism, but our ability to continue with traditional 
policing is our best weapon against terrorism. For this we need 
your assistance.
    State, tribal, and local law enforcement are doing all that 
we can to protect our communities from increasing crime rates 
and the specter of terrorism, but we cannot do it alone. We 
need the full support and assistance of the Federal Government. 
That is why programs like the COPS program and the Byrne-JAG 
program have been so successful and so popular in the state and 
local law enforcement community. And that is why it is so 
essential for these programs to be fully funded in fiscal year 
2008 and the years that follow.
    Unfortunately, as the IACP Budget Analysis makes clear, the 
reductions these critical programs have suffered in recent 
years and the cuts contained in the proposed fiscal year 2008 
budget have the potential certainty to cripple the capabilities 
of law enforcement agencies nationwide and force many 
departments to take officers off the streets, eliminate the 
promise of vital communications between agencies during a major 
public safety emergency or natural disaster--all leading to 
more crime and more violence in our hometowns and, ultimately, 
less security for our homeland.
    I want to thank you for the opportunity to present our 
comments today, and I also appreciate your leadership in our 
efforts. Thank you.
    [The prepared statement of Chief Laine appears as a 
submission for the record.]
    Chairman Biden. Thanks, Chief.
    Professor, great to have you as the clean-up hitter here, 
seriously.

  STATEMENT OF JAMES ALAN FOX, THE LIPMAN FAMILY PROFESSOR OF 
      CRIMINAL JUSTICE, NORTHEASTERN UNIVERSITY, BOSTON, 
                         MASSACHUSETTS

    Mr. Fox. Thank you very much. I am pleased to be here today 
alongside these law enforcement representatives from 
communities around the country.
    Now, I do not work the streets like these brave men. I live 
and work in the city of Boston, though. I do actually patrol 
the halls of the campus, a 31-year veteran of the lecture 
halls. I live and work in Boston, and Boston, of course, is a 
city that has grappled with a disturbing increase in gun 
violence, especially related to youth and gang activity, as 
Officer Nee has described.
    You know, they say that misery loves company. Well, for 
whatever consolation it is--and I am not sure it is any 
consolation--Boston has lots of miserable company, based on the 
crime statistics that we have for 2005 and the preliminaries 
for 2006 and some other reports, such as the PERF report.
    Just about a year ago, I was here to testify for the 
Democratic Policy Committee of the House about specifically the 
issue of the cuts in the COPS program and Byrne program, and 
what is interesting is if you look at the decline in police 
resources, it has not been across the board. Since 2000, the 
number of police officers per capita in cities, large cities, 
the 58 cities, the largest American cities, has been a 10-
percent decline. The rest of the Nation, there has been no 
change at all. So it is the cities that have seen this big 
downturn. And, of course, it is the cities where we are seeing 
the big increases in gangs, guns, and violence and homicides.
    Now, you also, Mr. Chairman, pointed out that it is not 
only the decline in resources that we are robbing Peter to pay 
for Paul, to use your phrase. I think it is more--not just 
robbing. We are robbing, raping, and murdering Peter to pay for 
Paul, the shift in resources from hometown security to homeland 
security. And I think to understand why this has happened, you 
have to consider who is at risk for these different types of 
criminal, terrorism versus street violence.
    The people most at risk for terrorism, of course, are the 
wealthy, the powerful, those who commute on the airlines, those 
who work in our financial hubs. The people who are most at risk 
for ordinary street violence are poor. They live in certain 
sections of D.C. and Baltimore and Newark. And when you really 
look at the numbers, you know, it is tragic, the thousands of 
deaths that occurred on 9/11. But many more people are gunned 
down every year in America in ordinary street violence than 
what happened in 9/11. And I do not want to weigh one death 
against another, but again, the people who are at risk for the 
kinds of tragedy we see every year are poor and powerless, and 
that is where we are seeing the problem.
    What is particularly disconcerting--I do not want to get 
too political about this, but I know that President Bush was 
discussed earlier and the fact that he was making cuts. It was 
so disingenuous. He was running for re-election, standing 
shoulder to shoulder with New York's finest at the same time 
cutting the Federal budgets for law enforcement that was 
supporting New York City.
    The other thing about it is I know people want tax cuts. 
You mentioned tax cuts. A few hundred extra dollars in your 
pocket is not very much consolation if you are staring down the 
wrong end of a gun.
    The thing about all these cuts is we may wake up someday 
and decide, gee, you know, maybe we should not have cut all 
that money, all the COPS money, it was so successful, we made a 
mistake. Well, you cannot just flip the switch and return the 
staffing in quick form. It takes time to recruit. It takes time 
to train. It takes time to provide those new recruits with 
experience. So it is unfortunate that we did this, and we are 
going to have to get back to the--turn the clock back.
    Now, I am here not so much to talk about policing, because 
certainly we have heard that. Smart crime fighting involves a 
balanced between enforcement, from community policing to 
identifying illegal gun markets; treatment, from drug rehab on 
demand to prisoner re-entry services; as well as crime 
prevention, from family support programs to summer jobs for 
high-risk youth. Regrettably, the prevention approach has at 
times been disparaged as a waste of money, it is worthless, it 
is soft on crime. Yet this cynical perspective reflects gross 
misunderstanding of the process and goals of prevention and a 
selective examination of the evaluation outcomes. Simply put, 
prevention programs can work; good prevention programs that are 
well implemented and well funded do work.
    Too often, prevention initiatives are implemented on a 
shoestring, a very short shoestring, with a brief window of 
opportunity to show results. It is a recipe for failure.
    Now, I am going to talk about five principles of crime 
prevention and violence prevention that are really critical to 
this investment.
    First of all, no program is successful all the time and for 
all individuals. No matter what the initiative, there will be 
failures. Rather than focusing on the failures, as the media 
likes to do--those ``bad news bearers,'' I call them--the goal 
should be a reasonable reduction in offending rates. In light 
of the enormous social and administrative costs and human tolls 
and suffering associated with each criminal act, even modest 
gains are worthwhile.
    Secondy, prevention should have an emphasis on the prefix--
on the prefix ``pre'' as in prevention. The greatest 
opportunity for positive impact comes with a focus on 
children--those who are young and impressionable and will be 
impressed with what a teacher, a preacher, or some other 
authority figure has to say. Youngsters, as we know, are often 
drawn to gang activity. It is actually for positive reasons. 
They are drawn to gangs because of the camaraderie, the 
respect, the status, the excitement, the protection. Our 
challenge is to find other ways, alternative means that 
youngsters could derive the same kinds of need fulfillment in 
programs that foster positive development.
    Third, patience is much more than a virtue. It is an 
essential requirement. Prevention is not a short-term strategy. 
Unfortunately, many prevention programs are given short windows 
in which to show progress, and they are often terminated before 
the final results are in.
    Fourth, prevention should take a multifaceted approach. 
There are many points of intervention for successful crime 
prevention. I do support the gang abatement program, but we 
should also look for promising programs for young children. 
Several proven and promising strategies are directed at at-- 
risk youth, at families with young children. Rather than assail 
young mothers who are unable to deal with their children, we 
need to assist them in trying to raise healthy children. In 
addition, we have school-based initiatives that enhance well-
being of large numbers of children. Behavioral skills training 
at the elementary school level, anti-bullying curricula at the 
middle school level. We know about the connection between 
bullying and later offending. Peer mediation and after-school 
programs targeted at the prime time for juvenile crime. All 
these things have payoff far greater than the investment.
    Fifth, and finally, prevention is significantly cost-- 
effective. Virtually all assessments of crime prevention 
confirm the old adage that an ounce of prevention is worth a 
pound of prison time. It is, however, a political reality that 
sound investments in prevention take years to reap the 
benefits. It takes bold leaders like you to earmark funds today 
for tomorrow's success, maybe 4, 8, 10 years down the road, 
when perhaps your successor will reap the benefits and derive 
pleasure.
    So, to conclude here, the recent upturn in youth violence 
was anticipated years ago. As you know, I have been here 
several times to talk about demographics and other factors, and 
even while the rates of crime were dropping in the 1990s, 
criminologists like myself warned about the potential for 
another wave of youth and gang violence. This not-so-perfect 
storm combining the growth in the number of at-risk kids and 
cuts in social and educational programs, we were so complacent, 
we cut the anti-gang programs because we did not think gangs 
were a problem anymore. And like your grass analogy, it comes 
right back.
    The encouraging news, though, is that the crime problem is 
not out of control, at least by contrast to the early 1990s 
when the Nation's murder rate was twice what it is today. It is 
not surprising that a small bounce-back will happen, but let 
this small upturn serve as a thunderous wake-up call that crime 
prevention, police funding, and dealing with illegal guns need 
to be priorities once again.
    At this juncture, we can look toward immediate solutions 
like the gang abatement program and easy access to illegal 
firearms--approaches that depend heavily on police personnel, 
intelligence, and deployment. But at the same time, we must 
maintain a long-range view toward the future. The choice is 
ours: Either pay for the programs now or pray for the victims 
later.
    Thank you.
    [The prepared statement of Mr. Fox appears as a submission 
for the record.]
    Chairman Biden. Thank you very much. I am going to yield to 
my colleague, Senator Kohl.
    Senator Kohl. Thank you so much, Senator Biden, and, 
gentlemen, it is good to have you here today. Am I hearing from 
all of you that the most important thing we need to do is to 
increase funding for the programs that we all know or feel work 
well? Is that the major thing that we are hearing here this 
morning, that it is the lack of funding that is causing the 
upsurge in crime in our communities, lack of Federal funding?
    Mr. Fox. It is juvenile justice funding, the OJJDP, lack of 
COPS funding. It is basically the idea that we thought we had 
solved the crime problem. You know, crime rates went down for 8 
straight years, and we said, Hey, we do not need to spend money 
on crime fighting anymore, let's pay attention to other really 
important things like who is going to win ``American Idol'' or 
something.
    But we really got complacent. We took our focus off the 
crime issue. You do not solve the crime problem. You do not 
solve the gang issue. You only control them. And so long as you 
are dealing with it, you are seeing success, and we had success 
and we said, oh, let's move the money elsewhere.
    You know, the one thing about youth is that we have a new 
group of teenagers every 5 years. You know, we did a great job 
in the 1990s in Boston and elsewhere in investing in those kids 
and making sure that they were not as violent as their 
predecessors, that they saw alternatives to joining gangs. But 
now we have a new group of kids, and they are too young--they 
do not know what it was like in 1990 when joining a gang could 
mean an early grave. They were like 2 years old. And so we cut 
back on the anti-gang initiatives in Boston and elsewhere, and 
lo and behold, that is where they are going again.
    So you have to keep on working at it, and because we are 
seeing success, we should redouble our efforts, not cut them.
    Senator Kohl. Is the prevalence of guns on the street a 
major, major issue here? Does anybody want to say anything 
beyond what is commonly said about guns? Is the prevalence of 
guns--do we need stronger gun laws? Do we need just stronger 
enforcement?
    Mayor Palmer. You know, I think we need stronger 
enforcement. There is no doubt about that. We need to enforce 
the laws that are already on the books. But we also need to 
aggressively go after straw purchases. In New Jersey, in my 
city, Trenton, New Jersey has very strict gun laws, but 5 
minutes from Trenton across the Delaware Bridge and into 
Pennsylvania, their laws are much more, in my estimation, 
lenient, where an individual can buy hundreds of guns and then 
sell them illegally, you know, to gang bangers in the cities.
    So I think that we have to close the gun show loophole. We 
have to go after straw purchases. And we have to make sure that 
people that commit crimes with guns, that they go to jail and 
not be out.
    One of the things that was just remarkable to me, 
unbelievable to me, was just about 2 months ago we had a press 
conference because the police finally arrested a person who was 
allegedly involved in two homicides, gang-- related homicides. 
This individual was out on bail--and this is the court system, 
too. But this individual was out on bail, committed two 
murders, and he was out on bail after having shot a cop three 
times. How could this guy be out on bail?
    So there is a whole disparity there as well, but certainly 
illegal guns are a focus. Mayor Bloomberg and Mayor Menino and 
other mayors are working with mayors against illegal guns, 
fighting the good fight. But we need to look at, you know, the 
Tiahrt amendment and those kinds of things as well, and go 
after these straw purchasers and make committing crimes with a 
gun as serious if it is happening in a poor neighborhood as it 
would be in an affluent one.
    Senator Kohl. Before I ask you, Mr. Fox, are you saying, 
Mayor, that the issue of guns, who has them, how they get them, 
whether it is legal or illegal, and then what we do with people 
once they are convicted of gun crimes in terms of 
incarceration, is among other things central to this whole 
discussion we are having here today?
    Mayor Palmer. Yes, absolutely. I had the experience of 
going with Mayor Bloomberg, Mayor Street from Philadelphia, and 
some Philadelphia councilmen to Harrisburg last September to 
talk about an idea of one gun a month. I met with Democrat and 
Republican State Senators. They almost laughed us out of the 
room and said, no, that is not going to happen, you are wasting 
our time if you are talking about one gun a month. And if you 
are married, that is like two guns a month, 24 in a year. And 
they said, no, I just bought three guns this weekend.
    And so they did not even want to put an amendment so that 
if you lost your gun or it was stolen to report it. They said 
no, we are not even reporting lost or stolen guns. You know 
what happens. People buy guns legally, sell them illegally, and 
if you go to trace it back, they say, well, now that this gun 
was involved in a crime, we found it was yours, oh, I lost that 
gun, or it was stolen. Well, if you report it when it happens, 
then that is a way of tracing it, too.
    Senator Kohl. Mr. Fox?
    Mr. Fox. I can put some of the onus here on the Congress 
and some of your colleagues. You know, in the last couple of 
years, it has been kind of disturbing to see some of the change 
in terms of the posture of the Congress toward guns. And I do 
not blame the NRA. You know, they have a right to have their 
opinion. But what I am concerned about is how so many Members 
of Congress seem to be willing to pass things like the immunity 
law, the gun immunity law that--you know, when they talked 
about tort reform 4 years ago in a campaign, who knew that is 
what they meant, that they would just protect the gun industry.
    I understand the logic of the debate on the other side, but 
so many of the advances that have been made in terms of guns in 
this country have been with the threat of lawsuits.
    Second, the whole area of gun tracing and efforts in 
Congress to trim and curtail the extent to which police 
departments can use gun tracing efforts, we know--you know, I 
have done a lot of work at the Brady Center, and we know that 
these rogue dealers, that 1 percent of the gun dealers are 
responsible for over half the guns used in crimes every year. 
We need to be able to identify these people.
    Boy, if there was a liquor store where all the 14-year-- 
olds are going to buy beer, we would do something about that 
liquor store.
    And I do agree wholeheartedly with the idea about 
prosecuting gun crimes, but let's also keep in mind that so 
much of the increase we have seen is in kids carrying guns. 
They do not really care, many of them, about what the criminal 
justice system might do. They are carrying guns because they 
feel they need it to survive. You know, the criminal justice 
system, the Federal Government can just take a number and wait 
in this line with all the other people out to get them. So they 
feel they need the gun to live, and whatever prosecution there 
is--they may not even be aware of what the Federal Government 
is doing--is not a priority.
    So we need to find out the process by which the guns are 
getting into this illegal market, and investigate it and deal 
with it, and deal with the rogue dealers.
    Senator Kohl. Anybody disagree with that or want to offer 
additional comments on this issue, gun availability? Crimes 
committed with guns and people not being sufficiently long 
incarcerated?
    Sheriff Kamatchus. If I might just make a comment on it, I 
own well over 100 firearms, and I have been a competitive 
shooter for a long time. And I am a firm believer in the fact 
that the old adage that guns do not commit crimes, people do. 
But I also am a firm believer in what was said earlier in the 
fact that you have to have strong, just--you know, we have to 
commit these individuals to a facility so they cannot get back 
out so quickly. We have to make sure that the individuals who 
perpetrate the crimes are handled harshly so that if there is 
any potential for a deterrent factor in that, it is real, it is 
not talked about.
    Recently, in a neighboring county to mine, we had some 
young teens at a party, and one young gentleman simply walked 
up--and this case is still active, so I do not want to get into 
it too much, but walked up and pulled a gun and shot another 
kid right in the head, in rural Iowa. Dropped him right there. 
And I know the family that had the loss personally.
    The bottom line on it is that we need to do something with 
those type of people so that those young individuals who are 
coming up that was mentioned earlier who do not have an 
understanding of what it is like to be involved with gangs or 
such, that those individuals have a better understanding of 
what can happen to them if they perpetrate those crimes.
    So, you know, I just want to make sure that we do not end 
up in a situation here where we evolve it into the banning of 
weapons or something that is so restricting that we do not have 
firearms anymore. That is just what I want to make sure is 
said.
    Senator Kohl. Oh, yes. No question about it. Your comment 
is--Mr. Nee?
    Mr. Nee. You know, it is the unlawful guns that we have the 
problem with up there in New England, firsthand knowledge. I 
can give you by way of example, the other night, Thursday 
night--I am certain Professor Fox could add. Within a ten-
square-block radius, within an hour and a half of time, we 
seized nine illegal guns on the street. Three were used in acts 
of violence; the rest were seized through aggressive police 
tactics that night because of the many shootings that we had 
that night.
    But I firmly believe being, again, a sportsman, somebody 
who enjoys that way of life, being around firearms for the past 
29 years of my life, I am not afraid of them. I believe that 
there has to be an understanding, and they do have a lawful 
purpose. But it is uniformity in gun laws in the United States 
that has to be brought in line. You can go to a neighboring 
State, and I see some of these places popping up now where they 
are teaching kids to shoot AKs. They have got to be 21 years 
old, and they are up there taking tactical training and courses 
where they are not licensed, there is no understanding, and 
then they get into these underground railroads with these 
firearms that are coming up out of some of the communities in 
other parts of the country. And we are lacking right now the 
ability to track and trace these underground networks of guns 
that are coming out of other parts of the country.
    You know, I watched the gun purchase program that we used 
up in Boston several years ago. No one was turning in the guns 
we were looking for. They were turning in black powder muskets 
and things, you know, things that were prehistoric, for sake of 
a better term.
    But, you know, these guns are still being used, and just to 
a slight degree I would disagree with the Professor in this 
sense, that these guns are not used just to keep kids alive. A 
lot of these guns are being used in aggressive acts of 
violence. What is extremely disturbing to me is up in Boston 
proper--and I am hearing it from a lot of the major cities--a 
lot of these kids today have no fear of taking up arms against 
an armed police department, an armed officer. And if the 
country--if people do not get that, if they are willing to take 
up arms against a uniformed officer, trained, they have no 
problem taking it up against the rest of society. That message 
has got to be sent with firm, swift convictions, 
incarcerations. The message has got to be clear. We can blame 
the guns all we want. It is the kids behind the guns that are 
using these things. Again, like you said, nine guns within 90 
minutes of a ten-square-block radius part of the city. It was 
very disturbing to the policemen involved, and we are finding 
it more and more common that these young gang members are 
taking firearms up against our police officers, our colleagues 
around the country. And it is very disturbing to me.
    Mayor Palmer. And I would say you need a comprehensive 
approach. The U.S. Conference of Mayors understands that. You 
need job training, re-entry is very important, drug treatment, 
housing when people get out, and all those things. But you have 
to make--police will tell you. What is really disturbing is 
before, if you were getting robbed, you would say, OK, stick 
'em up; here, here is everything, I am not arguing with you, 
here is everything I have. And they shoot you anyway. Why? That 
is a sociological thing, because they are mad--
    Mr. Fox. Eliminate the witness.
    Mayor Palmer. Well, no, they will shoot you in the butt. 
They will not kill you, maybe, but they are mad. They are just 
mad because you have it and I do not and I had to get it.
    So we need to do more in the prevention, education, and 
those things, but we also have to send a strong message, and I 
am--look, I never thought in my days I would be so conservative 
on this issue, as tough as I am on crime, but I know what it is 
doing to innocent people. But you have got to make sure these 
juveniles that shoot somebody, you got to lock them up for a 
long time so they get it out of their system, and when they are 
in jail, then you give them programs and try to help turn them 
around, because these kids have no fear using guns. They see it 
on videos. They see it on TV, MTV, and they think it is cool. 
To get bones, being in the gang, they make you shoot somebody. 
That has got to stop. You have to make these kids afraid if 
they get caught shooting a gun or having a gun that they are 
going to jail.
    Then we have to rehabilitate them when we fail before that. 
But it is just like why do teenage--no, I might get a little 
over my bounds here, but it is like why did teenage pregnancy 
at one point go down? It was because teenagers were starting to 
use condoms. Why were they using condoms? Because they were 
scared to death at the time of getting AIDS, because they 
thought, if I get AIDS, I am going to die. So they got scared 
and they started wearing condoms.
    Now, I know that is an overgeneralization, but you have got 
to make kids scared, teenagers, juveniles, scared to be in a 
gang, scared to use a gun because of the consequences. How we 
do that is up for debate, but we have got to scare them 
straight, in my opinion.
    Mr. Fox. You know, it is interesting--you mentioned the 
media. What is interesting is that so many kids will hold guns, 
because they see it on TV, it looked really cool, like sideways 
or upside down. Actually, you know, do not tell them this, but 
it is actually not good in terms of their accuracy. The gun can 
actually jam. But it looks good because that is what they see 
on TV.
    But I wanted to say something. You know, I used to write 
for a rather conservative newspaper, the Herald. I used to 
write a column, and anytime you say anything about guns, you 
get deluged with, you know, pro-NRA people. I did not know they 
had so much time on their hands. They are always cleaning their 
weapons. But they certainly have time to write me.
    I think it is very possible to be in favor of things like 
gun tracing and against the immunity law, yet respect the right 
of decent, law-abiding people that own guns. No one--I will not 
say no one, but so many people who are gun control freaks, I 
guess, we have no problem with people owning guns, so long as 
they use them right. And we are only looking to try to break 
down and interdict the illegal gun markets, and trying to do 
that is not--you know, the slippery slope and all that kind of 
garbage, there is no slippery slope. We are only interested in 
finding guns that are illegal, how do people purchase them. No 
one here is interested in trying to deprive law-abiding 
citizens of their guns.
    And it is not a panacea. The one gun a month, let's keep in 
mind that Virginia has one gun a month, and that is why Mr. Cho 
down at Virginia Tech had to wait a month to buy his second 
weapon. And I know in Massachusetts they talk about one gun a 
month. It is a small piece of the puzzle. We need, I agree, 
something comprehensive, something national, because every 
State is as weak as the weakest link in the chain. But we can 
indeed focus on dealing with illegal guns and respect the 
rights of gun owners. I wish we were all on the same page here. 
We should be. But for some reason, everyone wants to get 
painted into corners, like you are either against them or you 
are for them.
    Chairman Biden. Thank you very much, Senator.
    I would like to pursue--and I know your time is valuable, 
but if you would give me a few more minutes, I would like to 
pursue a couple things here, more in sort of a generic sense 
here, before we get into specifics.
    I am making this statement to invite response, and, look, 
as my colleagues from Delaware can tell you, I always say I am 
a United States Senator, I am used to not being taken 
seriously, so I really do want your critical comments, if you 
disagree with the assertions, the broad assertions I am going 
to make.
    For 17 years, I chaired this Committee and/or was the 
Ranking Member, and it took a long time to get a consensus 
between then the Chairman or Ranking Member, Strom Thurmond, 
and Joe Biden, which was an interesting combination at that 
time. And all through the 1970s and all through the 1980s, we 
had this constant, ongoing fight about, on the one side, what 
we have to do is look at the source of crime and deal with that 
because there is not much you can do in dealing with crime once 
it occurs; and the other side was hang 'em high, make the 
penalties tougher, put people in jail longer.
    And it took a long time to get what I thought was a 
consensus that from police to social workers agreed on. And 
that was there are three pieces of this puzzle. One piece, 
which is very important and could have real payback and was 
cheaper if you invested in it, was prevention. The other point 
was the apprehension of the bad guys. And the third point was 
incarceration of the bad guys.
    And so the original crime bill, which caused me so much 
trouble and took literally 6 years to get done, it is the first 
time we combined all three of those things. And that bill said 
three things--and it equally distributed the money. It was a 
$30 billion bill--and, by the way, this is not a pride of 
authorship thing. This is trying to get a sense of what seems 
to me to be happening, and I would like you to comment on it.
    And so we reached this sort of grand compromise, something 
we never really tried before: one, the Federal Government had a 
significant responsibility to deal with local crime, the reason 
being, Mr. Mayor, you can do everything right, but if we do not 
control cocaine coming out of Afghanistan, if we do not control 
cocaine coming out of Colombia, heroin coming out of Colombia 
and parts of Venezuela, coming through the port in Trenton, you 
cannot do much. There is nothing you can do about our porous 
borders and all the drugs that are coming through those 
borders, no matter how good you are.
    And so it seems to me there is a Federal responsibility. We 
went through this fight. The Federal Government has a 
responsibility, even though the ultimate local responsibility 
is the crime committed on the street, that is literally local. 
But all the factors that go into why that crime was committed, 
a lot of it had to do with the failure of Federal policy.
    So we fought through this whole thing about whether or not 
the Federal Government has a role in dealing with local crime. 
And the second thing we fought through was how you get my 
conservative friends, who wanted tougher enforcement, and my 
liberal friends, who wanted more prevention, whether it is drug 
rehab or whether it is after-school programs or a whole range 
of other things, how you get them on the same page. And it 
really was a tortuous undertaking. It took 6 years to get it 
done.
    And the third part--the part that nobody really liked--was 
providing more money to States to build prisons, because as the 
great Senator from the State of Maryland, Senator Mathias, 
pointed out when I authored the bill that became the Sentencing 
Commission, he said it is going to cause more people to go to 
jail, and he was right. It is. And we can argue whether the 
Sentencing Commission--but it had an effect. It had an effect 
at least while you are in jail. The only thing we do know is if 
you are in jail behind bars, you are not committing crime in 
the streets. You may be committing crimes in jail, but you are 
not committing them on the street.
    And so the one thing I was not able to get done in that 
bill was to deal with what Senator Specter and I are trying to 
do now, and that is, invest money in reintegrating people back 
into society when they get out of the prison--housing, jobs, 
drug programs, because all of you know drugs are rampant in 
prisons right now. If you are not addicted, you might get 
addicted in prison.
    And so we had this thing, and the formula seemed to work. 
We seemed to have arrived at a consensus, Democrats and 
Republicans, that there was some Federal responsibility. You 
needed to do all three pieces in order to impact on crime. And 
it was not just cops, more cops. It related to prevention, and 
it related to incarceration.
    Now, at the Federal level, we did the things you are 
looking for, Mr. Mayor. Use a gun in the commission of a crime, 
you go to jail. Bingo, you go to jail. You do not pass go. You 
go to jail. Most of your States do not do that. I say ``your 
States.'' Most States do not do that.
    We also suggested that there is no probation or parole in 
the sense that you look out there, and we did not know what 
caused recidivism, we did not know what the measure was, so I 
admit, I am responsible for it, and I sometimes wonder whether 
I was right, Professor, saying same time for the same crime, 
you know, and you go to jail. Or if it is not jail, if that is 
not the sentence, whatever that crime is.
    Now, here is my dilemma, what I really do not understand. I 
am wondering whether--I would ask from the police enforcement 
officer's standpoint and from an elected official's standpoint 
and then from a criminologist's standpoint. What happened? What 
happened that would lead anyone to believe that that formula 
was not a legitimate formula? When that formula, the 
combination of all those things was employed, when money was 
put behind it, States took advantage of it, crime actually went 
down at the very time those in the crime-committing years were 
going up. So what happened? What kind of discussions took place 
in the squad room, you know, over the last 10 years to say we 
have got this under control? What happened with--you know, did 
mayors and elected officials say this is not our biggest 
problem now? Did criminologists conclude this formula is not 
the proper formula?
    That is what I would like to talk about, because it seems 
almost like--you know, they talk about the Know--Nothing Party 
in the 1880s. It is kind of like we have become anti-
intellectual here, that, you know, the facts seem so obvious to 
me, and yet there is this consensus among many people, 
including my colleagues in Congress. You know, look, that 
formula does not work anymore, or that formula is not 
necessary.
    What is going on? Ted, did you want to make a comment?
    Sheriff Kamatchus. Well, it baffles me as much as anyone in 
this room and anyone who is listening or watching this today. 
Being a sheriff, I am a peace officer, but I am also a 20-year 
veteran of the political field. I have been elected five times. 
So I have to also balance that whole issue of the utilization 
of the taxpayers' money probably a little bit more because in 4 
years I may not have a job.
    But I have to tell you something. I am baffled as much as 
you are, and the reason I am baffled as much as you are is 
because look at who is at this table, and then think back into 
the 1990s and who was at the table. And what happened then was 
the proverbial squeaky wheel got the grease, and maybe we as 
organizations, maybe you as--I will call you the father of this 
COPS program, and more. Maybe we got complacent and quit 
squeaking. Maybe we got quiet because--and that allowed the 
people, for whatever reason who are opposed to it, to turn 
around and beat the drum about the success. And they became 
louder. And somewhere along the line, they began robbing from 
Peter to pay Paul, as you said.
    It does not make sense to me either. You know, the COPS 
program was not perfect. It had its flaws. But, you know, a 
neat thing about the program was it was self--healing. When we 
could not hire people quick enough and train them quick enough, 
we shifted funds. And when we arrested a bunch of people and we 
could not prosecute them quick enough, we shifted funds. And 
then all of a sudden when we needed technology, we shifted 
funds. And that is the positive thing about the COPS program.
    And I think what happened was it became so easy to shift 
those funds and so successful that it became more the norm, the 
standard, if you will.
    I do not know what the answer is other than to say that I 
hope your colleagues--I hope that they look at this panel and 
they look at what is going to happen in the months ahead and 
they hear us. And I look back to the same argument that 
happened in the 1990s. And if there are some experts out there 
who walk the street like we do who are opposed to this and who 
have got a better answer than we do, I would like to have them 
come up. I have traveled across this country. I have been to 38 
States in the last 11 months. I have driven a car from State to 
State. I have talked to people in small rural Kansas, all the 
way to Orlando, Florida, and L.A. and all over. And I do not 
see anybody against this, the funding.
    So to answer your question, I do not know. It has to be the 
fact that we have not beat the drum loud enough, and maybe we 
should take the blame for that. But I am here to tell you, you 
can see today, and you are going to hear more of it, we are 
going to beat the drum, sir, and we are going to stand with you 
on that issue.
    Chairman Biden. Thank you.
    Mr. Mayor?
    Mayor Palmer. I will say something that is obvious to 
everyone. Before I was a mayor, I was African-American. Or in 
my day I was a Negro, I guess, in the 1950s. And after I am 
mayor, I will be an African-American male as well. And it is 
very troubling as an African-American--take away being an 
elected official, a mayor--to see so many African-Americans and 
Latinos and poor people incarcerated. It breaks my heart that 
we would have to choose between prison and school. And I think, 
Senator, the question you ask is a good one, but it goes beyond 
your Committee. It talks to what we are dealing with in terms 
of race and racism and poverty. Mayor Antonio Villaraigosa, who 
is the mayor of the great city of Los Angeles, and Kwame 
Kilpatrick of Detroit and Francis Slay of St. Louis and others 
are on a task force about poverty within the United States 
Conference of Mayors. Poverty is at the root of all of these 
things, and poverty has to be addressed--how we look at 
poverty, how we get people out of the cycle of poverty, how we 
make sure that we have health benefits and those kinds of 
things, how we look at early childhood education, how we look 
at after--school programs, how we look at growing our economy 
in a green way that will produce more jobs. I mean, it goes 
beyond this Committee.
    And I think what has happened is the squeaky wheel does get 
the grease, but we have to recognize that in order to have 
strong cities, strong families, and a strong America, you are 
going to have to deal with the issue of race, racism, poverty, 
and getting our economy back on the right track, and that we 
are all our brother's keepers.
    You reap what you sow. You cannot have people living in 
abject poverty concentrated in cities and other areas, poor 
education systems without the resources needed to get the best 
teachers in the most challenging situations, you cannot 
continue to have drugs and those things happen, you cannot 
continue to have single parents and that whole moral issue, you 
cannot abandon kids and have people live in poverty and have 
drugs and illegal guns and expect that these individuals are 
going to grow up and be good. They are not. It requires a total 
comprehensive response, a total comprehensive commitment on 
behalf of all Americans--liberal, conservative, Democrat, 
Republican, Independent--in order to address it.
    So what we are talking about here is just the tip of the 
iceberg, but in order to do what really needs to be done, we 
need, in my opinion, and in the opinion of the mayors across 
this country, we need a whole comprehensive not only plan, but 
we need a new vision and a real commitment for America that 
says we are our brothers' and sisters' keeper.
    Chairman Biden. You know, Mr. Mayor--and before I go to 
you, Professor, and I am anxious to hear what you have to say, 
but this is on point. The irony was, in all those hearings--and 
literally probably a thousand hours of hearings I held in the 
1980s and early 1990s--one of the things that we did in this 
Committee and through the crime bill was actually try, to be 
very blunt about it, to embarrass the rest of society into 
dealing, through the crime bill, with things that really were 
not within the purview of the crime bill.
    For example, in the prevention program, I put in money for 
after-school programs. That should not be coming from the 
criminal side. That should be coming from the education side of 
the equation. We put in $20 million, which was a small amount 
then, for Boys and Girls Clubs, because we found that studies 
done on public housing projects that had them and did not have 
them, there was a 33 percent less crime rate, arrest rate, of 
folks, the same economic circumstance, same inner-city 
circumstance, where there was a Boys and Girls Club in the 
basement of a public housing project.
    So what we tried to do--and you have hit on what I was 
trying to get at. What we tried to do through the crime bill, 
as a weak read and weak vehicle, was to get a change in 
attitude about the overall point you are making. How can we 
have in this society a circumstance where the one thing every 
cop here will tell you, you see a direct correlation between 
truancy and juvenile delinquency. As the professor pointed out, 
I remember when I wrote a report 20 years ago saying everybody 
thinks most violent crime occurs in the deep of the night. It 
occurs between the time the kids get out of school and before 
their parents come home, including rape, including other 
violent crimes.
    And so what we tried to do was put in initiatives that were 
designed to deal with--for example, we know if you start kid in 
a troubled neighborhood in school at age 3, they have got 
something like--do not hold me to the exact number; I do not 
have it in front of me--something like a 70-percent better 
chance of finishing school than if you start them at age 6 in 
school. I mean, these are things we know.
    But I just want to make it clear to you all, I do not see 
adding cops as the answer. I see adding cops as the bridge 
here, as the dam, because the irony is--and I want to say this 
with the police officers here--they will be the first one to 
tell you, give them a chance to have full-blown treatment 
programs in their communities. Give them a chance to have full-
blown after-school programs. Give them a chance to have full-
blown early education programs. Give them a chance to have 
full-blown summer work programs versus adding 10 percent more 
cops. They will take the former, not the latter.
    Mr. Fox. In fact, the organization Fight Crime, Invest in 
Kids that you know of--they are centered here in D.C. It is an 
organization of crime victims and police officers and 
prosecutors. It has polled police officers and police personnel 
and supervisors and chiefs. Overwhelmingly, the belief is that 
the best way to solve the crime problem is not with more cops 
but prevention.
    May I respond to your question?
    Chairman Biden. Yes, sure. Professor, you are allowed. 
Professors are allowed to do that. Fire away.
    Mr. Fox. It was a great question about what happened to 
those three parts to the stool in the crime bill. It had a 
balance, the crime bill, and, by the way I remember even there 
was money in there for dance programs, because not every kid 
was looking for midnight basketball. Some kids were looking for 
dance and music and art.
    Let me take each of the three. In the prevention area, 
there was $9 billion of prevention money in the 1993 crime 
bill, and then what happened is the 1994 takeover of Congress. 
I do not want to make this too political, but it really is. You 
know, the Contract With America. ``Prevention'' is now a bad 
word, a dirty word.
    I remember, for example, that Vice President Gore was 
supposed to be coming up to Boston for a conference and give a 
talk to criminologists about prevention. Canceled right after 
the election. Cannot talk about prevention.
    I was on several committees for President Clinton, and I 
remember his frustration about how although $9 billion was 
authorized for prevention, what started to happen after 1994 is 
a lot of that money was moving away from prevention. There was 
this whole belief that, oh, it is all midnight basketball. Of 
course, most of it--that was sort of the rallying cry. It was 
all midnight basketball, and it was silly. Most of it was not 
midnight basketball, and the basketball was not even at 
midnight. It was in the after-- school hours. It just got sort 
of a bad name, and the administration, frankly, did not want to 
talk about prevention.
    In fact, I was working with Rahm Emanuel, who was the chief 
domestic policy adviser, and he said to me, ``If we can push 
one prevention program, what would it be?'' And that is, in 
fact, when I talked to Rahm about the after-school program, the 
fact that 49 percent of juvenile crimes occur between 2 and 8, 
and that led to the 21st Century Schools Initiative, and you 
may remember that the President in the State of the Union 
address in the late 1990s sort of advocated for after-school 
programs. So you basically could not talk about prevention 
because there was this belief that prevention is just soft on 
crime.
    Policing. Again, political. I know that you had a strong 
hand in the crime bill. Let's also recall that President 
Clinton campaigned on this idea of 100,000 cops. And when the 
new--
    Chairman Biden. Let's get it straight. He did not adopt the 
crime bill until September, and he had a very good idea. He had 
a good idea. He called me on the phone and said, ``How many 
cops will your bill buy?'' I said, ``A hundred thousand.'' And 
he was very smart. He said, ``Why don't you call it the 100,000 
COPS program?'' That was the totality of the commitment.
    Mr. Fox. OK.
    Chairman Biden. Keep going.
    Mr. Fox. But he did sort of talk about it, and it would 
seem that when the new President came in, you distance yourself 
from one of the pet projects or ideas of the previous 
administration, and I think that part of it was playing 
politics with protection and the fact that that was such--that 
was the last administration, and you throw out the last 
administration, and you sort of change the equation.
    Finally, in this whole area about corrections, I remember 
talking with Adam Walinsky, who you know is heavily behind the 
Police Corps idea. We were talking about the fact that so many 
more Americans were going to prison. We had 2 million Americans 
behind bars, and the idea was that people were not thinking 
about what is going to happen when these people eventually get 
out down the road. It was, like, well, we will deal with that 
bridge when we come to that. That was the bridge to the 21st 
century. Well, that bridge is here, and it is as firm and 
fortified as the Ted Williams tunnel in Boston, which, of 
course, as you may know, is falling apart.
    What happened is we did not take--we said let's put them in 
prison, but let's ignore them once they are there. Citizens 
said, I do not want to spend my tax dollars on education 
programs for inmates. I cannot afford to send my own kid to 
college. Why should I be spending money for education for 
inmates? They did not want to spend money for job training or 
other skills for inmates. And so we just basically housed them.
    It is great now that we are deciding that re-entry programs 
are critical, because they are now all getting out, but the 
process begins not the day they are released from prison, but 
the day they go into prison.
    So I think also, besides having re-entry programs, we have 
to do something more about rehabilitation programs in prison, 
which, again, do work, but we are kind of shortsighted there.
    Chairman Biden. Well, the reason I ask the question is I 
think there has been a fundamental philosophical change that 
took place over the last 6 to 8 years, and it did begin in 
1994, although it was not successful, and that was that, first 
of all, this is a State responsibility, not a Federal 
responsibility, the devolution of government argument, the 
neoconservative notion to devolve power to local government.
    The second thing I think that happened is that there is 
this emphasis on sort of a self-improvement as if somehow kids 
in the ghetto can pull themselves up by their bootstraps and 
make it out.
    And, third, there was this fundamental shift, Mr. Mayor, 
from any focus on cities and the problem about cities. We just 
walked away--housing, every other aspect of what you deal with.
    And so I guess the reason I ask the question is mainly for 
the record, because I think as we begin to try to rebuild--what 
I think the public is ready to do. I think the public is ready 
to go back and look at this comprehensively again. I do not 
think they are afraid. I think they get it. I think that the 
election in 2006, having nothing to do with the partisan 
notion, but every once in a while, the American public closes a 
chapter on a political philosophy. They closed the chapter. 
They closed the chapter on the New Deal in 1980. They closed 
the chapter on compassionate conservatism in 2006. They are 
waiting for us to construct a new paradigm, as they love to say 
here in Washington.
    And so what I would like to do, as a prelude to this 
question, and you do not have to answer it here, but I have 
``redrafted'' a comprehensive crime bill that I would like to 
get to you all. I know it is a whole lot of work to go through 
it and read it. You know, I understand I am asking a lot. But I 
would like you to take a look at it and get your eyes on it and 
give me an honest assessment of whether or not you think I am 
barking up the right tree here, number one.
    Second, I do think there is a change. Whether or not the 
change would be enough for us to be able to do something in 20 
months, I do not know. When I reintroduced the new crime bill 
to add 50,000 cops, a new COPS bill, we were able to get the 
money for it in the budget. Both the House and the Senate 
passed the bill that I introduced, passed the resolution 
authorizing the Budget Committee to spend money on it. Now we 
have got to go back and fight it through the Appropriations 
Committee. But there is a $1.15 billion per year for each of 
the next 5 years for hiring cops.
    I want to make it clear for the record, I do not see that 
as the end. I do not see that--but we have to begin to rebuild 
this sort of dike.
    The last point I will raise here is one of the things that 
has disappointed me the most--and I have to take blame for it--
is I am the guy years ago that crafted the drug czar 
legislation, the idea of getting one person in charge of all 
the Federal agencies, cooperating with the States and the 
cities about the drug problem. One of the reasons for that was 
to force the Federal Government to look around the corner, to 
look down the road and anticipate what was likely to come, like 
we did with ice, what used to be called ice, then meth. And one 
of the things I somehow think we have missed--and I need your 
help. I need your help. In particular, I need help from cops. 
They expect mayors to be enlightened. They expect 
criminologists to get it right. They expect you guys only to be 
asking for--I mean, when I say today that cops helped me write 
the prevention money into the crime bill, people look at me 
like I am lying. That was a cop idea. That was cops. Your 
predecessor as President of the Sheriffs, your predecessor as 
President of NAPO, your predecessor, the predecessor of the 
Chiefs, FOP. They were the ones who insisted on the money, and 
that is the only reason it got done, because you all showed up 
in people's offices wearing your uniforms, and you said we not 
only want more cops, we want the money for prevention in here.
    You know, I do not know what--because I do not do this 
every day like I used to because I am now the guy that does 
Foreign Relations, foreign policy stuff. It used to be the 
statistic, Professor, was a drug addict, meaning someone who 
consumed a controlled substance more than 3 times a week out 
there, committed on average 154 crimes a year, some of which 
related to just purchasing the drugs, others related to getting 
the money to get the drug.
    When they put him in drug treatment programs and you just 
kept them there for 6 months, what happened is you found that 
dropped down to about 22 crimes per year. Even if it was wasted 
time, it was cheaper than prison. It was cheaper than hiring 
more cops to figure out how to solve 125 of those crimes a 
year--if my numbers are correct. I used to know them off the 
top of my head.
    But the bottom line here, and somehow the thing that 
disturbs me the most about this is you guys see what is coming. 
You guys see what the professor said is that you had these 
teenagers 15 years ago who got into a system whereby we gave 
them some help, they ended up not being--or 10 years ago. But 
now you have got a whole new cadre coming up, and they did not 
hear of any of this stuff.
     And so it just disturbs me, and it--I do not know, it 
disappoints me that somehow we can so quickly forget the basic 
lessons we learned just 10 years ago. I wish old Ronald Reagan 
were around because he was the guy that coined, at least in the 
political context, ``If it ain't broke, don't fix it.'' This 
thing wasn't broke, but we have got to fix it.
    And so what I have done here--and I am not going to keep 
you--I have half a dozen specific questions that I would like 
to submit to you, and over the next couple weeks, if you get a 
chance, I would like you to respond to them for the record. But 
I cannot tell you how much I appreciate the fact that you 
uniformed officers are talking not just about more cops, and, 
Mr. Mayor, that you have, along with your fellow mayors, 
pointed out that--I mean, one of the senior colleagues on this 
Committee sits right here, Ted Kennedy, who has helped me and 
been a leader in this area, points out that one of the 
significant correlations that has occurred now is the increased 
dropout rates. The increased dropout rates in major cities in 
America have fueled this crime surge, that the idea we are just 
going to have more cops and think we are going to do something 
fundamental about this without dealing with the dropout rate, 
without figuring out these kids we are just dumping like a 
bucket on a front-end loader, you know, onto the street is, I 
think, very, very shortsighted. So hopefully--I do not want 
to--you have never heard me use the phrase ``war on crime'' or 
``war on drugs.'' It is a daily battle every day. There is no 
such thing as a ``war on crime.''
    But there are incremental things we can start to do right 
now to stem what is the reverse of a trend. The reverse of the 
trend for 10 years was crime was going down. We had ourselves 
in a situation where things were getting a little better. And 
now it is starting to tick back up, and I think that is just 
like a little bit of--you know, being at a dike where there is 
a little bit of a leak and a small hole. That hole is going to 
get bigger and bigger and bigger and bigger. And we are going 
to be right back to the flood we had in 1989 in terms of crime.
    So I want to submit three things to you all: a copy of the 
COPS bill that has been authorized, at least in terms of 
funding in the budget, not done yet but I will need help on it. 
And I may very well be asking you all to come up in uniforms 
again. You know, you all have an effect when you show up in 
uniforms. I mean, you really do. You really do. That is what 
happened last time, if you remember. You kept marching up here 
and going into offices, you know, people get the message.
    Secondly, I would like you to take a look at this 
comprehensive piece of legislation I have put together, have 
not introduced yet, and I genuinely am inviting constructive 
criticism of it and things you think should change. It is 
working off of a template that I think would work, but it may 
change.
    And, third, I am going to, especially with you, Mr. Mayor, 
if I may, as the President of the Conference of Mayors, lay out 
some matters that do not relate to the criminal justice system 
that I believe impact significantly on the criminal justice 
system, to see if we can get your input, because this time I 
think there has to be companion legislation introduced as well 
to re-engage the public in the debate about things we know, if 
we do, if we spend the money on, they work. And I think it is 
pretty important we change--my conservative friends love this 
word--the paradigm. We have got to change the paradigm here. 
You have got to invest money to save money. You have got to 
invest money to save money.
    If we can do something to keep your kids in Trenton in 
school through grade 12, the cost savings for the expenditure 
needed to do that is astronomical. It is a factor of 10 or 12. 
A kid drops out of school in ninth grade, the cost associated 
with that kid dropping out is gigantic. And so we have got to 
change the debate, like we did last time. We changed the debate 
so it was not liberal-- conservative. It was practical, when we 
put all three of these things together.
    I think you have got to change the debate. Mr. Mayor, I am 
going to, with your permission, submit ideas not all of which 
are original to me by any stretch of the imagination, but ones 
that I think that maybe we can get a--when we get the mayors 
and the cops, we get the sheriffs and the county executives, we 
get the local people sitting down, again, and working out some 
basically grand compromise here as to how we should be spending 
what is not a lot of money relative to a several trillion 
dollar budget, but it is important to do it.
    Anyway, I cannot thank you all enough. I promised I would 
have you out by 12 and it is 1 minute after. I have breached my 
promise. I apologize. But I thank you very much. I know how 
busy you are, and unless any of you want to make a closing 
comment, I would--yes, Professor.
    Mr. Fox. Professors always like to have a closing comment. 
I am glad that you mentioned that about other things we can do. 
You know, we have changed the way that we run our schools. We 
have gotten rid of all the extracurriculars. We do not want to 
pay the money. Also, we are so focused on test scores, some 
kids are dropping out because they just cannot--they are not 
going to make it to graduation, other kids because we have 
taken away from school all the things that gave them a sense of 
pride, satisfaction, and maybe even enjoyment of school, the 
music and drama. We need to put these things back into the 
curriculum because it will keep kids engaged. And I know that 
is not crime fighting, but in the long run it is. I will 
address that in my comments.
    Chairman Biden. I would ask you--I was just reminded by 
staff. The statements of Senator Leahy and Senator Feinstein 
will be entered in the record as if read. They both offer their 
apologies. They are in other committees. I do not want you to 
think that lack of participation here is a lack of interest. 
There is a real interest here. I think there is a resurgence, 
Mr. Mayor. I think we are finally getting it again. I hope that 
is what it is. If it is not, we are in deep trouble. We are in 
deep trouble if it is not.
    I thank you all. We are adjourned.
    [Whereupon, at 12:01 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
